<html>
<title> - CLEAN ENERGY DEPLOYMENT ADMINISTRATION</title>
<body><pre>[Senate Hearing 112-21]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-21

                 CLEAN ENERGY DEPLOYMENT ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   TO

    RECEIVE TESTIMONY ON THE PROPOSAL FOR A CLEAN ENERGY DEPLOYMENT 
  ADMINISTRATION, AS CONTAINED IN TITLE I, SUBTITLE A OF THE AMERICAN 
  CLEAN ENERGY LEADERSHIP ACT OF 2009 (S. 1462 OF THE 111TH CONGRESS)

                               __________

                              MAY 3, 2011




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
66-579 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            RAND PAUL, Kentucky
MARK UDALL, Colorado                 DANIEL COATS, Indiana
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel












                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Guith, Christopher, Vice President for Policy, Institute for 21st 
  Century Energy, Chamber of Commerce............................    22
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Reicher, Dan W., Executive Director, Steyer-Taylor Center for 
  Energy Policy and Finance, Stanford University, Palo Alto, CA..     9
Rothrock, Ray, General Partner of Venrock and Board Member of the 
  NVCA...........................................................    47
Silver, Jonathan, Executive Director, Loan Programs Office, 
  Department of Energy...........................................     4
Vilsack, Thomas J., Secretary, Department of Agriculture.........    44
Yanosek, Kassia, Founding Principal, Tana Energy Capital LLC, New 
  York, NY.......................................................    17

                                APPENDIX

Responses to additional questions................................    51

 
                 CLEAN ENERGY DEPLOYMENT ADMINISTRATION

                              ----------                              


                          TUESDAY, MAY 3, 2011

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Why don't we get started. Thank you for 
coming today to participate in this hearing on the proposal to 
establish the Clean Energy Deployment Administration. This 
legislation has been in development for several years now. It's 
benefited greatly from input from many people in the private 
sector, including the ones who are here today.
    The problems of bringing new energy technologies to the 
commercial marketplace have been documented for a long time. In 
many hearings over several years, we've heard about the 
challenging environment for securing investment in emerging 
clean energy technologies. The high capital requirements 
coupled with the unavailability of affordable financing have 
generally steered investments toward largely proven 
technologies while the real game-changing technologies have not 
been able to get the financing they need.
    People have become accustomed to Moore's law in the 
information technology industry, which of course observes the 
trend that computing power roughly doubles every couple of 
years. This has resulted in rapid growth in that industry and 
high expectations for technological achievement and investment 
performance. But energy technologies have not followed that 
same path. Although research and development in the United 
States has been strong, leading to some very promising advances 
in renewable energy, highly fuel efficient and electric drive 
vehicles, smart grid technology, and ultra-efficient lighting 
and appliances, their transition to the commercial marketplace 
has been frustratingly slow.
    The rest of the world is working hard to accelerate this 
deployment cycle. As we've heard in a hearing in March of this 
year, our global competitors are committing significant 
resources to making their countries attractive environments for 
clean energy technology deployment, including through financing 
support.
    We've discussed the particulars of this bill before in the 
committee. I'll leave that issue to the witnesses. Mr. Silver 
has had an impressive set of results in recent months with the 
loan guarantee program. I'm interested in hearing what have 
been the lessons that he has brought from that experience that 
we should be aware of as we consider this legislation.
    There are several features to the legislation, such as the 
emphasis on management of risks across a portfolio of 
investments and the targeting of a risk profile through a loan 
loss reserve, that should allow CEDA to function with the speed 
and flexibility that's needed. I hope we can hear testimony on 
those issues.
    One thing I think has been made clear in the hearings so 
far on this topic is that we should not wait to make these 
investments. The budgeting conventions that we use here dictate 
that the funds set aside for CEDA within the Treasury are 
considered spent immediately, even though any actual losses may 
not happen for years and could be offset by fees collected. So 
we need to find a way to pay the amount that the bill is 
considered to cost when it comes to the full Senate.
    While I'll acknowledge that the current environment makes 
this difficult, I look forward to working with colleagues to 
find a suitable offset, and we should not lose sight of the 
fundamental cost-effectiveness of this type of financing 
support. CEDA will generate significant private sector spending 
and will finance projects that have many times the value of the 
actual risks that will be taken.
    So thanks again for your time and being here today, and let 
me call on Senator Murkowski for any comments she has before we 
hear from the witnesses.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I'd like to 
thank the witnesses here this morning as well.
    Discussion about a Clean Energy Deployment Administration I 
think is certainly an important one, certainly timely. We had 
an opportunity to bring this up and move this out of this 
committee on a broad bipartisan basis last Congress. When you 
look to the purpose of CEDA, to address the persistent 
inability of clean energy projects to obtain financing, I think 
you will have folks say, well, why haven't we figured this one 
out earlier?
    Back in 2005 with passage of the Energy Policy Act, we took 
a major step toward addressing the problem by creating the loan 
guarantee program there at DOE. But I think we would all agree 
that it has been less than perfect I terms of its 
implementation. We heard some continued frustration from clean 
tech developers who can secure support from the Federal 
Government for financing projects overseas, but not here in the 
United States.
    So we set out to address this in a more robust way by the 
development of CEDA. Now, I want my colleagues to understand 
that great care was taken to balance the deployment of clean 
energy technologies with the requirement that CEDA be 
responsible and transparent in its operations.
    I want to be equally clear that this proposal will require 
mandatory spending in the form of startup capital that was not 
offset in the bill that we reported last Congress. CBO has 
assigned a $9.6 billion score to CEDA. It's my view that we 
must find an acceptable offset for this entire amount and I'm 
prepared to work with every member of the Senate who's 
interested in doing so. An offset will not only help CEDA 
become a reality. It will also help us hold the line on new 
spending and assure that we do not make our deficit any worse.
    But despite the high initial cost, I agree with you, Mr. 
Chairman; I believe that CEDA is a smarter way for the Federal 
Government to promote clean energy technologies. Perhaps to 
provide a little bit of context here, I would remind my 
colleagues that CEDA would be able to re-use its funding over 
time to back private lending for clean energy projects, and 
that's a more efficient way--or a more efficient use of 
taxpayer money than these one-time payments in form of grants 
or tax credits.
    So when you look at how CEDA would operate, I believe that 
it would ensure that we get more bang for our buck than the 
more conventional forms of government support.
    Finally, I think it's important to recognize that there's a 
legitimate role for the Federal Government to play in this 
area, even in difficult fiscal environments such as we're 
facing. As a matter of public policy, the United States is not 
going to stop supporting clean energy technologies altogether. 
So if you accept that premise, this debate can and should be 
about how we make better use of all of our resources, including 
the revenues that result from energy production.
    It's my hope this morning that this hearing will serve as 
the beginning of a constructive conversation about these 
challenges, a conversation that accepts our limitations and 
focuses on the most efficient possible use of our resources so 
that we can support greater deployment of clean energy 
technologies made here in the United States.
    Mr. Chairman, I look forward to the testimony this morning 
and again thank the witnesses.
    The Chairman. Thank you very much.
    Let me just introduce our panel of witnesses. First is Mr. 
Jonathan Silver, the Executive Director of the Loan Guarantee 
Program at the Department of Energy here in Washington. Next is 
Mr. Dan Reicher, who is a frequent witness before our committee 
and Executive Director of the Steyer-Taylor Center for Energy 
Policy and Finance at Stanford at this time; Ms. Kassia 
Yanosek, who is the Founding Principal of Tana Energy Capital 
LLC in New York; and Mr. Christopher Guith, who is the Vice 
President for Policy with the Institute for 21st Century Energy 
at the U.S. Chamber of Commerce.
    So we appreciate all of you being here. Why don't we just 
have you give your testimony in that order, if you would, and 
each of you take 5 or 6 minutes to make the main points you 
think we need to understand and then we'll have some questions.
    Mr. Silver, go right ahead.

STATEMENT OF JONATHAN SILVER, EXECUTIVE DIRECTOR, LOAN PROGRAMS 
                  OFFICE, DEPARTMENT OF ENERGY

    Mr. Silver. Thank you, Mr. Chairman, and good morning. 
Chairman Bingaman, Ranking Member Murkowski, and members of the 
committee: Thank you for the opportunity to testify today. My 
name is Jonathan Silver and I'm the Executive Director of the 
Loans Programs Office at the Department of Energy and by 
background a venture capital investor, hedge fund manager, and 
business executive involved in building high-growth companies.
    I believe the loan programs provide critical support for 
the Nation's commercial deployment of clean energy and the jobs 
that go with it. I welcome the opportunity to discuss the 
programs with you and to highlight the significant impact the 
program has had to date.
    The discussion about the right approach to energy finance 
is in some ways a discussion about our national commitment to 
global competitiveness in the 21st century. Clean energy will 
play an important role in our future and the extent and speed 
with which we successfully deploy new energy technologies will 
have enormous implications for our economic vitality.
    So far, our track record is mixed. Although we have the 
highest GDP in the world, we rank ninth in clean energy 
investment as a percent of GDP and we have fallen to third and 
absolute dollars invested. A number of other countries have 
proportionally larger and more significant ongoing Federal-
level programs to finance clean energy deployment.
    Global competitiveness is not, of course, the only 
challenge. Our reliance on foreign oil is a constant threat to 
our national interests. Investment in domestic clean energy can 
help us regain control of our energy future and eventually 
achieve energy independence.
    While investing in clean energy has long-term strategic 
benefits, it also plays a more immediate role in our economic 
recovery. Investments in power generation, manufacturing, and 
energy efficiency create new and good jobs and they create them 
today.
    There are many ways for the Federal Government to support 
investment in clean energy. Tax incentives and manufacturing 
credits are effective, but must be put and left in place for an 
extended period. Uncertainty makes business planning 
challenging. Further, these credits do not finance construction 
and are only applicable after a project is built.
    The loan guarantee programs have been among our most 
effective support mechanisms. Since March 2009 we've issued 
conditional commitments or closed on 27 projects, with more to 
follow. These investments are in a wide array of clean energy 
and auto technologies, including wind, solar, nuclear, advanced 
biofuels, geothermal, transmission, battery storage, and more. 
I'm pleased to report that we issued our first term sheet for 
an advanced fossil project just last week. The loan programs 
effectively support an ``all of the above'' energy strategy.
    So far the loan programs have offered nearly $30 billion in 
financing for these projects. With total projects costs of 
nearly $47 billion, that's about $17 billion of equity invested 
in these projects.
    Project sponsors estimate that these projects will create 
or save more than 61,000 direct jobs. Cumulatively, they will 
generate nearly 29 million megawatts of clean energy each year, 
enough to power over 2 million households, about the number of 
households in Kentucky and Wyoming combined. They will avoid 
over 60 million tons of CO<INF>2</INF> annually, more than the 
emissions produced by the 3 million vehicles registered in 
Alaska and Utah combined.
    Loans have been made in 21 States representing almost every 
region of the country. Apparently, the wind blows and the sun 
shines in red and blue States.
    The loan programs are necessary to overcome both cyclical 
and structural impediments to the rapid deployment of 
commercial energy technologies. First, the recent economic 
crisis reduced investment in clean energy. The tax equity 
market, one of the principal sources of equity for renewables 
projects, shrank dramatically.
    Second, traditional lenders, never eager to invest in 
innovation, pared back further. There is a systemic shortage of 
traditional debt financing for clean energy, stemming basically 
from the relatively high completion risks associated with such 
projects. It's the old adage: Every bank wants to be the first 
bank to lend to your second project.
    Third, many private sector lenders are unwilling to 
underwrite commercial-scale clean energy projects because they 
often require loans with unusually long tenors. The irony is 
that this valley of death between pilot and commercial 
deployment, where companies find it most difficult to source 
capital, is exactly the moment they begin to have a meaningful 
impact on jobs.
    As you consider how the Federal Government can most 
successfully support clean energy deployment, it might be 
helpful to identify a few of the lessons learned from the loan 
programs. First, time-limited funds are not ideal in selecting 
highly innovative projects. Those projects need time to mature 
and deadlines require projects that can get done quickly.
    Second, project finance is an excellent financing 
instrument for some, but not all, projects. At its most basic, 
project finance matches cash-flows to repayment schedules. A 
project without identifiable cash-flows for the duration of the 
loan is at a disadvantage. The private sector makes use of a 
wide range of financing tools, including venture, venture debt, 
mezzanine debt, letters of credit, insurance instruments, 
hedges, and more, to provide solutions tailored to project 
needs.
    Finally, small companies have different financial needs and 
repayment capabilities than large companies do. Approaches 
which recognize this difference will make it easier to support 
important new technologies.
    The loan programs have made an enormous contribution to the 
Nation's ability to compete in the energy sector already. That 
said, they represent only one of a variety of potential 
approaches. They were not designed to be a comprehensive 
Federal financing program and they do not operate that way. The 
CEDA legislation adopted by this committee would pursue a 
mission similar to the loan programs, but with additional 
flexibilities and financial tools.
    Again, thank you for inviting me here today. I look forward 
to responding to your questions.
    [The prepared statement of Mr. Silver follows:]
    Prepared Statement of Jonathan Silver, Executive Director, Loan 
                 Programs Office, Department of Energy
                              introduction
    Chairman Bingaman, Ranking Member Murkowski, and members of the 
Committee, thank you for the opportunity to testify today. My name is 
Jonathan Silver, and I am the Executive Director of the Department of 
Energy's (DOE) Loan Programs Office (LPO). DOE's loan programs provide 
critical support for the nation's commercial deployment of clean 
energy, and the jobs and economic growth that come with it. I welcome 
the opportunity to discuss the programs with you and to highlight the 
significant accomplishments we have made to date.
     global and domestic context in which the loan programs operate
Clean Energy Opportunities
    Clean energy has an important role to play in America's future. The 
extent to which we can successfully deploy new, innovative clean energy 
technologies will have enormous implications for our future global 
competitiveness, energy security, economic recovery, and environment.
    America's future prosperity may well depend on our ability to play 
a leading role in the global transition to a clean energy future. Yet, 
to date, the United States has not demonstrated the sustained 
commitment to clean energy investment that is needed to remain 
competitive.
    Global competitiveness is not the only issue we face. The U.S. 
imports a significant portion of the petroleum it consumes from foreign 
sources, and this dependence on oil threatens our national security. 
Investments in domestic clean energy sources can help us regain control 
of our energy future and reduce oil consumption.
    Clean energy not only has long-term, strategic benefits, it is also 
an important part of our ongoing national economic recovery. 
Investments in clean energy projects, including power generating 
plants, manufacturing facilities, and energy efficiency activities, 
create new and good jobs--and they create them now.
Deployment: Importance, Obstacles, and Role for Government
    Much of the public discussion around clean energy focuses on 
research and development, which is crucial to reaching our long-term 
national energy goals. But near-term deployment of innovative, 
commercially-ready technologies is critical as well. Deploying energy 
technologies at scale immediately creates jobs, drives down unit costs, 
creates new supply chains, and incentivizes future research and 
development efforts. Innovation drives commercialization. But 
commercialization also drives innovation; it is a virtuous circle.
    Unfortunately, there are both cyclical and structural impediments 
to the rapid deployment of innovative technologies in the United 
States. The recent economic crisis slowed the pace of investment in 
clean energy projects. Traditional lenders pared back their appetite 
for risk, resulting in reduced liquidity in the market. The market for 
equity investments in renewable energy projects based on tax credit 
incentives--one of the principal sources of equity for renewables 
projects--shrank, as well.
    There also is an ongoing, systemic shortage of debt financing for 
certain types of innovative clean energy projects, stemming from the 
relatively high completion risks associated with such projects--
principally technology risk and execution risk. Private sector lenders 
have limited capacity or appetite to underwrite such risks on their 
own, particularly because commercial-scale clean energy projects are 
capital-intensive and often require loans with unusually long tenors. 
Thus, there is a ``valley-of-death'' in the clean energy technology 
development cycle, between the pilot-facility stage and commercial 
maturity, where companies find it difficult to obtain the financing 
needed to deploy their technologies at commercial scale--the very point 
at which they begin to have a meaningful impact on job-creation and the 
environment.
    The Department of Energy's loan programs were designed to address 
these impediments and fill this financing gap. Loan guarantees lower 
the cost of capital for projects utilizing innovative technologies, 
making them more competitive with conventional technologies, and thus 
more attractive to lenders and equity investors. Moreover, the programs 
leverage the Department's expertise in technical due diligence, which 
private sector lenders are often unwilling or unable to conduct 
themselves.
    Achieving our nation's clean energy goals--including global 
competitiveness and domestic energy security--will require the 
deployment of innovative technologies at a massive scale, and the DOE 
loan programs are an important element of federal policy to facilitate 
that deployment.
                    background on the loan programs
    As you know, the Loan Programs Office actually administers three 
separate programs: the Title XVII Section 1703 and Section 1705 loan 
guarantee programs, and the Advanced Technology Vehicles Manufacturing 
(ATVM) loan program.
    The 1703 program, created as part of the Energy Policy Act of 2005, 
supports the deployment of innovative technologies that avoid, reduce, 
or sequester greenhouse gas emissions. As a result of the recently-
passed 2011 Continuing Resolution (FY11 CR), the program currently has 
$18.5 billion in loan guarantee authority for nuclear power projects, 
$1.5 billion in authority for energy efficiency and renewable energy 
projects, $8 billion for advanced fossil projects, $4 billion for 
front-end nuclear projects, and $2 billion in mixed authority. In 
addition, and for the first time, the 1703 program, historically a 
``self pay'' credit subsidy program, now has $170 million in 
appropriated credit subsidy, which will support a small number of loan 
guarantees for energy efficiency and renewable energy projects.
    The Section 1705 program was created as part of the American 
Recovery and Reinvestment Act of 2009 (Recovery Act), to jump-start the 
country's clean energy sector by supporting projects that had 
difficulty securing financing in a tight credit market. The 1705 
program has different objectives than 1703 and somewhat different 
programmatic features. Most notably, under 1705, the credit subsidy 
costs associated with the loan guarantees are paid through funds 
appropriated by Congress (though applicants still must pay application 
and other administrative fees). Additionally, to qualify for 1705 
funding, projects must begin construction no later than September 30, 
2011. DOE's authority to enter into loan guarantee agreements under 
1705 expires on that date as well.
    The ATVM program issues loans in support of the development of 
advanced vehicle technologies to help achieve higher fuel efficiency 
standards and reduce the nation's dependence on oil. Congress funded 
this program with $7.5 billion in credit subsidy appropriations to 
support a maximum of $25 billion in loans.
                      success of the loan programs
    The Loan Programs Office has made great strides since this 
Administration took office two years ago. Between 2005, when the 
program began, and 2009, DOE did not issue a single loan or loan 
guarantee. Since March 2009, the Department has issued conditional 
commitments for loans or loan guarantees to 27 projects, 16 of which 
have reached financial close--with more to follow soon.
    DOE has provided (or conditionally committed to provide) nearly $30 
billion in financing to these 27 projects, which have total project 
costs of nearly $47 billion. The projects are spread across the 
country, and reflect an array of clean energy and automotive 
technologies, such as wind, solar, advanced biofuels, geothermal, 
transmission, battery storage, and nuclear. These projects include the 
world's largest wind-farm; two of the world's largest concentrated 
solar power facilities; the first nuclear power plant to begin 
construction in the United States in the last three decades; the 
world's first flywheel energy storage plant; and a biodiesel refinery 
that will triple the amount of biodiesel produced in the United States.
    Project sponsors estimate these 27 projects will create or save 
over 61,000 jobs, including construction and operating jobs.\1\ 
Cumulatively, they will generate nearly 29 million MWh of clean energy 
each year--enough to power over two million households, or 
approximately the same number of households in the states of Kentucky 
and Wyoming combined.\2\ And they will avoid over 16 million tons of 
CO<INF>2</INF> annually--more than is produced by all of the 
approximately three million registered vehicles in Alaska and Utah.\3\
---------------------------------------------------------------------------
    \1\ Breakdown by program is as follows (based on Sponsor 
estimates): 1703: 5,210 construction, 1,340 permanent; 1705: 12,900 
construction, 3,470 permanent; ATVM: 5,700 created, 33,000 saved.
    \2\ Sources: EIA 2005 Residential Energy Consumption Survey, Table 
US8; U.S. Census Bureau, American FactFinder, 2010.
    \3\ Sources: U.S. Environmental Protection Agency, Emission Facts: 
Greenhouse Gas Emissions from a Typical Passenger Vehicle; U.S. 
Department of Transportation, Federal Highway Administration, Highway 
Statistics 2008, Table MV-1 (December 2009).
---------------------------------------------------------------------------
    Under the Section 1703 program, DOE has offered conditional 
commitments for four projects so far, including one nuclear power, one 
front end nuclear, and two energy efficiency projects, which amount to 
just over $10.6 billion in total government supported financing, 
including capitalized interest. Under 1705, DOE has issued conditional 
commitments to 18 projects representing approximately $10.8 billion in 
financing, including capitalized interest. In addition, a significant 
number of projects are sufficiently far along in the due diligence 
process that we have issued a working draft term sheet and are in 
active negotiations with the applicants. LPO estimates that these 
projects, if they ultimately reach financial close, will utilize all of 
our remaining credit subsidy appropriations.
    While there has been significant interest in the 1705 program, 
there has been little demand for renewables loan guarantees under the 
1703 program. This may, in part, reflect the ability of certain 
renewable projects to qualify under both programs. But it may also 
reflect the fact that innovative clean energy companies--which tend to 
be smaller and have less capital--consider the 1703 program's self-pay 
credit subsidy cost requirement to be prohibitive. The new credit 
subsidy provided by the 2011 CR will allow the 1703 program to invest 
in a limited number of projects that may not have had the means to pay 
a fee to cover the subsidy cost up front.
    To date, DOE has committed and closed five ATVM loans, totaling 
over $8.3 billion, which will support advanced vehicle projects in 
eight states. We anticipate making a number of significant additional 
ATVM loan commitments in the coming months.
                       value of doe loan programs
    It is important to remember that the loan programs are not grant 
programs; LPO expects that the loans it provides or guarantees will be 
repaid. We review projects on a competitive basis, and we do not fund 
every eligible project. We ensure that the loans we support meet our 
statutory requirement of having a ``reasonable prospect of repayment.'' 
Every project that receives financing first goes through a rigorous 
financial, legal and technical review process--similar to, and in some 
ways more comprehensive than, what a private sector lender would 
conduct--before a single dollar of taxpayer money is put to work.
    Not surprisingly, this type of sophisticated review requires 
thousands of man-hours, which is costly. However, administrative costs 
associated with the Title XII programs, including personnel expenses, 
are required by Title XVII to be covered by fees paid by applicants.
    Moreover, the programs can efficiently and effectively leverage 
government resources to spur private-sector investment. A relatively 
small amount of appropriated credit subsidy can support a large amount 
of new private sector investment. Moreover, when a loan is fully 
repaid, the nation will have benefited from the incentivized private 
sector investment at relatively little cost to taxpayers.
    The potential benefits are great. The projects supported by the 
loan programs promote economic growth and job creation. Clean energy 
and automotive technology projects can create construction and 
permanent operating jobs. In addition, these projects help lower the 
delivered cost of renewable energy and contribute to the build-out of 
the domestic supply chain and manufacturing base that we will need to 
``win'' the clean energy future.
                               conclusion
    In just two years, the Department's loan programs have begun to 
meet the expectations Congress had in creating and funding them. We are 
making a meaningful contribution to our national clean energy goals, 
and we look forward to continuing our progress.
    That said, it is important to recognize that programs such as ours 
represent only one of a variety of potential approaches to providing 
federal support for clean energy. While useful for certain types of 
projects, loan and loan guarantees are not appropriate for all types of 
clean energy projects.
    Moving forward, we must think about clean energy investment in a 
comprehensive manner, ensuring that limited resources are deployed in 
the most effective and efficient manner possible. Only then will we be 
able to create an environment where the private sector will invest in 
clean energy technologies at the scale needed to remain globally 
competitive, help secure our energy independence, and protect our 
environment.
    Thank you again for inviting me here today. I look forward to 
responding to your questions.

    The Chairman. Thank you very much.
    Mr. Reicher, please go ahead.

STATEMENT OF DAN W. REICHER, EXECUTIVE DIRECTOR, STEYER-TAYLOR 
CENTER FOR ENERGY POLICY AND FINANCE, STANFORD UNIVERSITY, PALO 
                            ALTO, CA

    Mr. Reicher. Mr. Chairman, Ranking Member Murkowski, and 
members of the committee: Thank you for the opportunity to 
testify. My name is Dan Reicher. I recently became Director of 
Stanford University's Steyer-Taylor Center for Energy Policy 
and Finance and a faculty member of the Stanford Law School and 
the Graduate School of Business. Prior to my role at Stanford, 
I was Director of Climate Change and Energy Initiatives at 
Google, held senior executive posts with a venture-backed 
renewable energy company and a private equity firm, and served 
as Assistant Secretary of Energy for Efficiency and Renewables 
in the Clinton Administration.
    The legislation you are advancing today would, in simple 
terms, create a financing entity with the resources, tools, and 
independence to help American clean energy technologies cross 
the colorfully but accurately named valley of death that sits 
between the early stages in the development of an energy 
technology and its full commercial deployment. By helping to 
reduce the risks in crossing the valley of death, the Clean 
Energy Deployment Administration would substantially increase 
private sector investment in energy technology development and 
deployment and create a more successful and competitive U.S. 
clean energy industry.
    Let me personalize the CEDA story a bit. For about 2 
decades I have walked the ups and downs of the energy research, 
development, demonstration, and deployment pathway. I started 
my journey at DOE, where we spent billions on R and D to 
advance the full range of energy technologies from fossil to 
renewables and efficiency to nuclear power. R and D was and is 
a high-risk enterprise, where the only certainty is that it 
almost always takes longer and costs more to get a technology 
to a point where the private sector will take a serious look at 
commercialization.
    After 8 years, I left DOE and joined a venture capital-
backed renewable energy company. Our mandate was to take high-
risk venture capital and use it to turn energy R and D into 
products that had enough of a shot at commercialization that we 
could sell our firm or take it public. It was tough sledding at 
this company, in part because the route to successful 
commercialization of energy technologies is so very 
challenging.
    Proceeding down the energy technology pathway, I helped 
form and lead a private equity firm to invest in clean energy 
projects. We worked with banks, engineers, and construction 
firms to get real energy projects built and financed. It was at 
this firm that I reached the scariest point along the energy 
pathway. Day after day, we received investment proposals for 
energy project with profiles that simply exceeded the risk 
threshold of our capital. Had the underlying technologies been 
prone in the lab? Generally, yes. Had they operated in a pilot 
plant? Sometimes. Had they operated at commercial scale? 
Rarely. There were relatively few proposals that fit our 
investment profile. In the end, the biggest chunk of our 
capital was used to finance corn ethanol plants, a technology 
well proven at large commercial scale for decades.
    It was at this firm that I peered into the valley of death, 
seeing there the remains of hundreds of abandoned energy 
projects, projects based on exciting technologies supported by 
DOE or venture capital firms, that worked well in pilot plants, 
but died trying to get to commercial scale, from wind, solar, 
biomass, and geothermal to advanced coal and natural gas, 
transmission and distribution, nuclear power, and beyond.
    We and most other private equity firms simply could not 
shoulder the risk in the commercial scale-up of an energy 
technology, where a single project, a single project, can cost 
hundreds of millions or billions of dollars.
    It was interesting landing next at Google, where engineers 
spend months writing computer code for a new product, test it, 
and then 1 day, in my simple terms, push a button and it's 
deployed. There are certainly tough engineering challenges and 
software products that fail. It's just that with software 
products generally succeed and fail faster and more cheaply 
than in the energy world.
    In the energy technology world, months turn into years and 
years into decades and billions can be spent on a single 
technology before even one commercial plant or factory is 
operating.
    The Department of Energy loan guarantee program, to its 
credit, has been working hard to address the investment 
challenges of the valley of death, backing loans for innovative 
projects as well as providing financial help to conventional 
projects. Those of us watching from the outside have been 
impressed with recent progress and professional skills of the 
DOE team, but continue to be concerned about the multi-agency 
review process and the uncertainty of the yearly budgeting 
cycle.
    I and many others across the energy technology spectrum, 
from fossil to renewables to nuclear power, believe that as 
long as the loan guarantee program remains as currently 
structured inside DOE, it will continue to be subject to these 
challenges. I and many other observers of the global clean 
energy race believe that our country would be better served by 
taking a new approach to the critically important task of 
energy technology commercialization.
    We support significant fiscal year 2012 funding for the DOE 
loan guarantee program led by Mr. Silver to continue its 
important work in the near term. However, over the longer term 
supporting the financing of capital-intensive energy projects 
with serious scale-up risks in close collaboration with the 
private sector is not a good match for the current structure, 
oversight, risk tolerance, and financial tools of the 
Department of Energy.
    Commercializing energy technology requires a new, more 
effective approach, and that approach is CEDA. Mr. Chairman and 
Ranking Member Murkowski, we have a limited window of 
opportunity to develop and execute a clear U.S. strategy for 
global leadership in the clean energy sector. We unfortunately 
find ourselves caught flatfooted in the energy technology race 
while clean energy investment in Europe and Asia charges on.
    We need look no further than China to see the clean energy 
technology industry, largely invented and once dominated by the 
U.S., slipping away reactor by reactor, turbine by turbine, 
panel by panel. As we have dithered in our country in setting 
national energy and climate policy and addressing financing 
needs, China has been working aggressively to become the 
world's clean energy powerhouse, surpassing the U.S. on a 
number of clean energy commercialization fronts, for example 
recently becoming the world's largest producer of wind turbines 
and solar panels.
    In 2010, China attracted $54 billion of new clean energy 
private capital, with Germany attracting $41 billion and the 
U.S. $34 billion. These numbers do not reflect the major 
additional investment made by the Chinese government or the 
China Development Bank.
    CEDA, in strong partnership with the private sector, could 
more effectively support the scale-up of clean energy 
technologies and U.S. clean energy competitiveness than the 
current approach. CEDA would have an array of tools, such as 
loan guarantees, insurance products and bonds, to accelerate 
private sector investment. Initially funded with an 
appropriation of $10 billion, CEDA would become a self-
sustaining entity, that is no additional appropriations, based 
on mechanisms in the bill that would allow it to take a 
financial stake in projects.
    Also, while CEDA would be established as an agency within 
DOE, it would have an administrator and board of directors and 
enjoy an important degree of independence, like the Federal 
Energy Regulatory Commission, an independent arm of the DOE.
    Finally, CEDA would be a highly complementary mechanism to 
a national clean energy standard that this committee is 
currently considering and the Obama Administration supports.
    Mr. Chairman and Senator Murkowski, Congress needs to enact 
CEDA this year. Prioritizing the scale-up of innovative 
technologies will help us reduce the cost of energy for all 
Americans, enhance our national security, and combat climate 
change. It will also position to U.S. to capture a massive 
global market that is growing by the day and create large 
numbers of good-paying jobs in the process.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Reicher follows:]
Prepared Statement of Dan W. Reicher, Executive Director Steyer-Taylor 
 Center for Energy Policy and Finance, Stanford University, Palo Alto, 
                                   CA
    Mr. Chairman, Ranking Member Murkowski, and members of the 
committee, my name is Dan Reicher and I am pleased to share my 
perspective on the proposal for a Clean Energy Deployment 
Administration contained in Title I, Subtitle A of the American Clean 
Energy Leadership Act of 2009. I am Director of Stanford University's 
Steyer-Taylor Center for Energy Policy and Finance and a faculty member 
of the Stanford Law School and the Graduate School of Business. I also 
chair the board of directors of the American Council on Renewable 
Energy and serve on the Board on Energy and Environmental Systems of 
the National Academy of Sciences and the board of directors of the 
American Council for an Energy Efficient Economy.
    Prior to my role at Stanford, I was Director of Climate Change and 
Energy Initiatives at Google. I also served on President Obama's 
transition team where I helped develop the stimulus package for clean 
energy. Prior to my position with Google, I was President and Co-
Founder of New Energy Capital, a private equity firm funded by the 
California State Teachers Retirement System and Vantage Point Venture 
Partners to invest in clean energy projects. Prior to this position, I 
was Executive Vice President of Northern Power Systems, a venture 
capital-backed renewable energy company.
    Prior to my roles in the private sector, I served in the Clinton 
Administration as Assistant Secretary of Energy for Energy Efficiency 
and Renewable Energy, the Acting Assistant Secretary of Energy for 
Policy, and Department of Energy Chief of Staff and Deputy Chief of 
Staff.
                                overview
    Mr. Chairman and Ranking Member Murkowski, the legislation you are 
advancing would, in simple terms, create a financing entity with the 
resources, tools and independence to help American clean energy 
technologies--from energy efficiency and renewable energy to fossil 
energy to nuclear power--cross the colorfully but accurately named 
``Valley of Death'' that sits between the invention of an energy 
technology and its full commercial deployment. By helping to reduce the 
risk in crossing the Valley of Death, CEDA would substantially increase 
private sector investment in energy technology development and 
deployment and create a more successful and competitive U.S. clean 
energy industry, with all the attendant economic, environmental and 
security benefits.
    If you'll indulge me for a moment, let me personalize the CEDA 
story a bit. For about two decades I have walked the ups and downs of 
the energy research, development, demonstration and deployment (RDD&D) 
pathway. I started my journey at DOE under President Clinton where we 
spent billions on research and development to advance the full range of 
energy technologies. R&D was--and is--a high-risk enterprise where the 
only certainty is that it almost always takes longer and costs more to 
get a technology to a point where the private sector will take a 
serious look at commercialization.
    I left DOE and joined a renewable energy company that had recently 
received significant venture capital investment. Our mandate was to 
take this high-risk capital and use it to turn energy R&D into products 
that had enough of a shot at commercialization that a bigger company 
would want to buy our firm or we could take it public. It was tough 
sledding at this company for several reasons, but in part because the 
route to successful commercialization of energy technologies is so 
challenging.
    Proceeding down the RDD&D pathway, I helped form a private equity 
firm, with capital from a large public pension fund and a venture 
capital firm to invest in clean energy projects. We were the equity in 
these projects and we worked with banks and other debt providers--as 
well as engineering and construction firms--to get real energy projects 
built and operating. It was in this firm that I reached the scariest 
point along the energy RDD&D pathway.
    Day after day our firm received investment proposals for energy 
projects based on technologies with profiles that simply exceeded the 
risk threshold of our capital. Had the underlying technologies been 
proven in a lab? Generally yes. Had they operated in a pilot plant? 
Sometimes. Had they operated at commercial scale for a decent period of 
time? Rarely. We received so many project proposals but there were so 
few where we could actually make an investment. So what were we left 
with? Well, the not so little secret is that the biggest chunk of our 
capital was used to finance corn ethanol plants--a technology well 
proven at large commercial scale, for decades.
    It was in my role at this firm--traveling down the RDD&D pathway--
that I first peered into the Valley of Death. Littering the valley 
floor are the remains of hundreds--perhaps thousands--of abandoned 
energy projects. Projects based on exciting technologies backed by DOE 
or venture capital firms. Technologies that worked well in pilot or 
demonstration plants but died trying to get to commercial scale. And we 
saw advanced technologies of all sorts, from wind, solar, biomass and 
geothermal, to breakthrough coal and natural gas, to nuclear power and 
beyond. We and most other private equity firms simply couldn't shoulder 
the risk inherent in the initial commercial scale-up of an energy 
technology, where a project--a single project--can costs hundreds of 
millions or even billions of dollars.
    It was interesting landing next at Google, primarily a software 
company where engineers spend months writing computer code for a new 
software product, test it internally, and then one day determine it's 
ready for initial commercial testing and deployment. In my simple 
terms, they push a button and it's deployed. If the product needs 
improvements then Google engineers make them and a new version is 
launched. There are certainly very tough engineering challenges and 
products that fail. It's just that with software my perception is that 
a product generally succeeds--and fails--faster and more cheaply than 
in the energy technology world.
    In the energy technology world, months turn into years, and years 
into decades, and billions can be spent on a single technology before 
even one commercial scale plant is operating. And this of course is 
where CEDA comes in. The book might be titled: ``CEDA: A Bridge over 
the Valley of Death.''
    The Department of Energy, to its credit, has been working hard to 
address the investment challenges of the Valley of Death. The DOE Loan 
Guarantee Program has been backing loans for innovative projects across 
a broad spectrum of energy technologies under authority it gained in 
the 2005 Energy Policy Act. And additional funding, resulting from the 
American Recovery and Reinvestment Act, has given DOE the means to 
provide loan guarantees for renewable energy, biofuels and transmission 
projects that commence construction before September 30, 2011. DOE has 
improved its performance in guaranteeing loans for large-scale projects 
across a range of technologies under both of these programs. Those of 
us watching the program from the outside have been impressed with the 
recent progress and the professional skills of the DOE team, but 
continue to be concerned about the multi-agency review process and the 
uncertainty of the yearly budgeting cycle. As long as the loan 
guarantee program remains as currently structured inside DOE, it will 
continue to be subject to these challenges. We and many other observers 
of the global clean energy race believe that the country would be 
better served by taking a new approach to the critically important task 
of energy technology commercialization.
    We support significant FY 2012 funding for the DOE Loan Guarantee 
Program to continue its important work in the near term. However, over 
the longer term, supporting the financing of capital-intensive energy 
projects with serious scale-up risks--with leadership from and in close 
collaboration with the private sector--is not a good match for the 
current structure, oversight, risk tolerance, and financial tools of 
the Department of Energy. If the U.S. is to regain its competitiveness 
in the global clean energy technology race, commercializing energy 
technology innovations requires a new more effective approach--and that 
approach is CEDA. I would also note that political support for--and the 
ultimate success of--a national Clean Energy Standard, that this 
committee is currently considering and the Obama Administration 
supports, will be greatly enhanced if a complementary and comprehensive 
financing mechanism, like CEDA, is also adopted.
    We have a window of opportunity to develop and execute a clear U.S. 
strategy for global leadership in the clean energy sector, but that 
window won't be open indefinitely. In this nascent yet global market, 
we unfortunately find ourselves caught flat-footed in the energy 
technology race, hamstrung by a lack of focused policies, while clean 
energy investment in Europe and Asia charges on. As I detail below, 
China in particular has surpassed the U.S. in the last few years on a 
number of energy commercialization fronts, for example recently 
becoming the world's largest producer of wind turbines and solar panels 
and also quickly accelerating public and private energy R&D. In 2010 
China attracted $54B of new clean energy private capital, with Germany 
attracting $41B and the U.S. $34B. These numbers do not reflect the 
major additional investment made by the Chinese government or the 
significant additional support provided by the China Development Bank 
to enter key markets such as Brazil and India.
    CEDA--with some independence from DOE and in strong partnership 
with the private sector--would more nimbly and efficiently support the 
scale-up of clean energy technologies, and U.S clean energy 
competitiveness, than the current approach. As developed in the 
American Clean Energy Leadership Act, CEDA would administer various 
types of credit instruments, such as loan guarantees, insurance 
products, and clean energy backed-bonds to accelerate private sector 
investment in the commercial deployment of new energy technologies. 
Initially funded with an appropriation of $10 billion, CEDA could 
become a self-sustaining entity based on ``profit participation'' 
mechanisms that would allow it take a financial stake in the projects 
it backs. Also, while CEDA would be established as an agency within DOE 
it would be under the direction of an administrator, a board of 
directors, and technical advisory council and would enjoy an important 
degree of independence including, for example, from line reporting and 
the Secretary's reorganization authority. The best analogy is the 
Federal Energy Regulatory Commission (FERC), an independent arm of the 
DOE.
    Congress needs to enact CEDA this year. Prioritizing the scale-up 
of innovative technologies will help reduce the cost of energy for all 
Americans, enhance our national security, and address climate change. 
It will also position the U.S. to capture a massive global export 
market that is growing by the day--and create large numbers of good 
paying jobs in the process.
                           the case for ceda
    As I have testified before in this committee, there is an 
established pathway for investment in clean energy:

  <bullet> It starts with government investment in early stage high 
        risk technology research;
  <bullet> It moves to corporate and venture capital funding of 
        technology development;
  <bullet> It then proceeds to actual deployment of technologies 
        through project finance and other mechanisms.

    CEDA is focused on the final stage of this continuum--the 
deployment of clean energy technologies at a scale significant enough 
to actually address our energy-related challenges like climate change, 
energy security, economic competitiveness, and job creation. However, 
CEDA, as developed in the American Clean Energy Leadership Act has an 
even more particular and critical focus: the point at which an energy 
technology is ready for scale-up from a pilot project to a full-scale 
plant. This problematic moment is often when many promising energy 
technologies falter and a significant number die. In the clean energy 
technology industry it is known as the ``Valley of Death''.
    The Valley of Death looms large. Addressing it will be a particular 
challenge for scale-up of promising technologies including, for 
example, Carbon Capture and Storage (CCS), Enhanced Geothermal Systems 
(EGS), advanced nuclear reactors, various on-shore and off-shore wind 
technologies, Concentrating Solar Power (CSP), advanced batteries, 
biomass power and fuels, and an array of efficiency devices. Failing to 
bridge the Valley of Death has already cost us serious progress on many 
clean energy technologies from renewables, nuclear and energy 
efficiency to coal, natural gas and oil--technologies that have been 
developed with U.S. government and private sector investment and that 
could address our many energy-related challenges. In an increasing 
number of cases investors from other countries have stepped into the 
breach and the technology has advanced but we have lost the employment 
and tax benefits of a company based in the U.S.
    We need look no further than China to see the clean energy 
technology industry--largely invented and once dominated by the U.S.--
slipping away: reactor by reactor, turbine by turbine, panel by panel. 
As we have dithered in our country in recent years in setting national 
energy and climate policy, China has been working aggressively to 
become the world's clean energy powerhouse. The Chinese have:

  <bullet> Set standards for power companies to produce more clean 
        electricity;
  <bullet> Shut down more than 50,000 megawatts of old coal-fired power 
        plants and a substantial amount of outdated heavy manufacturing 
        capacity;
  <bullet> Established a program to improve the efficiency of its top 
        1,000 most energy-consuming enterprises;
  <bullet> Invested heavily in R&D;
  <bullet> Provided incentives for homeowners to install solar panels 
        and water heaters;
  <bullet> Made major investments in the electricity grid;
  <bullet> Set a target to reduce carbon intensity 40-45% below 2005 
        levels by 2020;
  <bullet> And most relevant to this hearing, provided low cost 
        financing for clean energy generating and manufacturing 
        projects.

    With this attention to innovation, policy and investment the 
Chinese are quickly becoming the dominant world player in clean energy 
technology. Consider:

  <bullet> The Chinese are now the world's largest manufacturer of wind 
        turbines, having vaulted past several EU nations and the US in 
        this fast-growing clean energy technology business;
  <bullet> The Chinese also recently leapfrogged the West as the 
        world's largest manufacturer of solar panels, with six of the 
        top ten global solar photovoltaic manufacturers now in China;
  <bullet> The Chinese have 13 nuclear power plants operating today and 
        27 more under construction with the intention to raise the 
        percentage of nuclear-generated electricity from 1% to 6% by 
        2020, and make dramatic increases beyond that point. 
        Importantly, China is also becoming increasingly self-
        sufficient in reactor design and construction;
  <bullet> The Chinese have plans for 140,000 megawatts of new 
        hydropower capacity by 2015;
  <bullet> China has approved the construction of GreenGen, an 
        integrated gasification combined cycle coal plant capable of 
        capturing and storing carbon dioxide and anticipated to be in 
        operation before the U.S. equivalent, FutureGen.
  <bullet> Major US companies have set up not only new clean energy 
        technology manufacturing facilities in China, but increasingly 
        are locating significant R&D facilities there. Thus the Applied 
        Materials Corporation, based in Silicon Valley and the world's 
        largest supplier of equipment for making semiconductors, flat-
        panel displays, and solar panels recently decided to build its 
        newest and largest research lab in China.
  <bullet> And overall, while in 2004 the U.S. was the focus of 
        approximately 20% of total global clean energy investment and 
        China accounted for just 3%, in 2010, the U.S. saw 19% of 
        global clean energy investment, while China surged past our 
        nation with 20% of that investment.

    Beyond China, other countries including Germany, Japan, South 
Korea, and Denmark are forging ahead with ambitious clean energy 
economic strategies and becoming top competitors in the vast emerging 
global marketplace for clean energy technology. Significantly, all of 
them are taking aggressive approaches to policy and investment. The 
work of these countries is critical in mitigating climate change, but 
their top motivation has often been their own economic self-interest 
through the creation of vibrant new industries, significant new jobs, 
and growing international markets in clean energy technologies and 
projects. In contrast, the U.S. has largely stayed on the sidelines, 
endlessly debating the need for and approach to a successful clean 
energy economic strategy.
    That's the bad news from a US competitiveness, security, and 
environmental perspective. But the good news is that we can regain our 
leadership in clean energy. As the President said in his 2010 State of 
the Union address, we should ``not accept a future where the jobs and 
industries of tomorrow take root beyond our borders...'' Aggressive 
federal policy can drive private sector investment--measured literally 
in the trillions of dollars--that will be required to move the nation 
toward a more sustainable energy future. Among the solutions:

  <bullet> Adopt a national clean energy standard, following the lead 
        of many states that have set renewable energy and energy 
        efficiency standards. Political support for--and the ultimate 
        success of--a national Clean Energy Standard, being considered 
        by this Committee and supported by the Obama Administration, 
        will be greatly enhanced if a complementary and comprehensive 
        financing mechanism, like CEDA, is also adopted.
  <bullet> Increase our investment in energy R&D significantly. The 
        President's proposed 2012 budget is a good start with a one-
        third increase in overall investment in clean energy 
        technologies compared to 2010;
  <bullet> Extend federal tax credits that have been so vital in 
        encouraging private sector financing of clean energy projects;
  <bullet> Improve energy project permitting and siting processes;
  <bullet> Reject the proposal to withdraw EPA authority to regulate 
        carbon emissions under the Clean Air Act. The Supreme Court 
        upheld this authority in 2007 and there is a significant and 
        increasing portion of the business community that seeks greater 
        certainty and reliability regarding carbon controls, and 
        supports a well-designed regulatory approach;
  <bullet> And most relevant to this hearing, replace the DOE loan 
        guarantee program with CEDA.

    CEDA, as established under the American Clean Energy Leadership 
Act, would increase the capital available for clean energy projects, 
thereby helping to mature the underlying technologies and move them to 
scale.
    Chairman Bingaman and Ranking Member Murkowski, we welcome your 
bill and its innovative and attractive approach to improving clean 
energy finance through the creation of CEDA. Below we describe what we 
see as CEDA's key elements addressing the Valley of Death and provide a 
few thoughts about how your bill might be strengthened.
           ceda: key elements addressing the valley of death
    There are typically two elements of energy project finance: equity 
and debt. Federal tax credits have stimulated equity investment in 
wind, solar, geothermal and other clean energy projects. Securing loans 
for projects has been more problematic, especially for higher risk 
projects. Bankers are generally reluctant to provide a loan for a 
project involving a technology that has not been proven at commercial 
scale. A common refrain from the bankers goes something like this: 
``We'd be delighted to finance your third or fourth project. Come see 
us after you've built the first couple of full-size plants and you've 
got solid operating data proving that your technology works at scale.''
    Bank financing plays a critical role because a commercial-scale 
energy project can often cost hundreds of millions or billions of 
dollars, generally beyond the capacity of venture capital investors who 
have often advanced the technology through pilot scale. The projects 
also generally have rates of returns well below what the venture 
community expects. There are other sources of private equity beyond 
venture capital but these players generally require the lower cost debt 
provided by the banks to be part of the project finance deal in order 
to meet their return thresholds.
    Let me provide a bit of perspective on the scale of energy project 
transactions and expected rates of return. Between 2005 and 2009 
venture capital investment in wind, solar, biofuels, biomass, 
geothermal, small hydro and marine energy companies was roughly $12 
billion worldwide. In contrast investment in projects deploying these 
technologies was more than twenty times this at about $275 billion. And 
in very rough terms, venture investors expect average returns on a per 
transaction basis to be 35-40% in a basket of deals ranging from ``home 
runs'' to total losses. In contrast, returns for equity investors on 
individual energy projects are roughly in the 8-12% range and 6-8% for 
the banks providing debt, with the expectation that most energy 
projects will perform as promised--and none will be outright failures.
    The key point is that the Valley of Death projects sit precariously 
between the venture capital and project finance worlds. They are 
generally too big in terms of required capital and too small in terms 
of returns for the venture capital community. And they are often too 
risky for the project finance players, especially for the banks that 
typically provide the great majority of a project investment. This is 
where CEDA comes in.
    CEDA would have a number of important characteristics that make it 
particularly attractive to projects confronting the Valley of Death:

  <bullet> First, it would focus on the central element of the Valley 
        of Death problem, i.e. ``breakthrough technology'' with 
        significant potential to advance critical national energy goals 
        but that ``has generally not been considered a commercially 
        ready technology as a result of high perceived technology risk 
        or other similar factors.'' It is this breakthrough technology, 
        with its significant risk profile, that faces difficulties 
        raising capital for the first few commercial-scale plants--both 
        innovative energy generation projects and manufacturing 
        facilities.
  <bullet> Second, CEDA would provide a broad array of tools to 
        accelerate deployment of clean energy technology including 
        direct loans, loan guarantees, letters of credit, and other 
        credit enhancements. It would also have the authority to issue 
        bonds, notes, debentures or other obligations or securities. 
        These tools go well beyond the current loan guarantee program 
        that DOE is administering.
  <bullet> Third, upon transfer of current DOE loan guarantee functions 
        to CEDA, the new agency would be capitalized with $10 billion. 
        $10B is not a small sum, particularly in these budget-
        constrained times, but it could leverage private capital many 
        times more and, as I explain next, with this initial 
        appropriation CEDA may well become self-sustaining, i.e. 
        require no further federal appropriations.
  <bullet> Fourth, CEDA, would have the authority to use ``alternative 
        fee arrangements'' such as ``profit participation'' and 
        ``contingent fees.'' This is important to the success of the 
        program because it allows CEDA to be compensated for risk it 
        takes through a financial stake in successful energy projects 
        and companies. This will help meet the critical goal of making 
        the Clean Energy Investment Fund, which undergirds CEDA, self-
        sustaining and more able to accommodate truly innovative 
        technologies. Other government entities like the U.S. Overseas 
        Private Investment Corporation (OPIC) currently have such 
        authority to be compensated in providing loans, guarantees, 
        insurance etc to U.S. private companies. In order to allow CEDA 
        to more completely address commercialization challenges at the 
        early stages of the Valley of Death, the Committee may want to 
        consider augmenting this important authority by more explicitly 
        allowing the agency to take equity positions through purchase 
        of warrants in the technology companies underlying its project 
        investments. CEDA would then benefit from the rising value of 
        companies that successfully commercialized their products with 
        CEDA support. CEDA could do this either directly or through a 
        fund in partnership with private investors. This might also 
        take the form of rights to invest in additional future projects 
        on favorable terms.
  <bullet> Fifth, CEDA would be established as an agency within DOE 
        under the direction of an administrator, a board of directors 
        and technical advisory council. It would, however, enjoy an 
        important degree of independence, including from Departmental 
        line reporting as well as the Secretary's reorganization 
        authority. The best analogy is the Federal Energy Regulatory 
        Commission (FERC), an arm of the DOE with significant 
        independence.
  <bullet> Sixth, CEDA would use a portfolio investment approach to 
        mitigate risk and diversify investments across technologies. 
        Its board of directors, as well as the technical advisory 
        council, will have the background and skills to help ensure 
        that the financial and technical risks of the agency's clean 
        energy project investments are adequately considered. The 
        current DOE loan guarantee program is limited in taking such a 
        portfolio approach, with each deal having to stand on its own. 
        CEDA, in contrast, could balance a lower risk but innovative 
        energy efficiency aggregation investment with an investment in 
        a higher risk first time scale-up of a new manufacturing 
        facility or generating project. The Committee may want to 
        consider an additional way to broaden the portfolio and 
        mitigate risk, that is for CEDA to bring together current clean 
        energy investment programs not only at the Department of Energy 
        but also at other agencies as well, including a biofuels 
        program at the Department of Agriculture, a major transmission 
        fund at the Western Area Power Administration, and several 
        funds at the Small Business Administration.
  <bullet> Finally, CEDA would have the authority to set its loan loss 
        reserve, which is the percentage of capital the agency should 
        keep as a buffer against potential losses. This is important 
        authority because the lower the loan loss reserve the more 
        loans CEDA can make for the same amount of appropriation. For 
        example, the current figures of $10 billion in appropriations 
        with a 10% reserve would provide about $100 billion in loans. 
        If the reserve percentage was reduced to 5% then about $200 
        billion in loans could be provided for the same $10 billion. 
        The loan loss reserve depends on a number of factors including 
        the quality of the deals selected and the structuring of the 
        transactions. The smarter the approach CEDA takes to these and 
        other tasks, under the direction of its Administrator and with 
        input from its board and advisory council, the easier it will 
        be to set a reasonable loan loss reserve. I would also note 
        that OMB oversight of CEDA investments, under the Senate bill, 
        would be narrowed to a review of the loan loss reserve, 
        compared with OMB's broader current oversight of the DOE Loan 
        Guarantee Program.

    These and other core elements of CEDA, as developed in the Senate 
bill, will create a financing entity with the resources, tools and 
independence to successfully bridge the Valley of Death for critical 
clean energy technologies--from efficiency and renewables to fossil 
energy to nuclear power--with significant resulting economic, security 
and environmental benefits.
                               conclusion
    Mr. Chairman and Senator Murkowski, the legislation you are jointly 
advancing obviously comes in the midst of significant national economic 
and federal budget problems. But it is precisely at this moment--when 
clean energy projects so vital to our economy, environment and security 
are facing increasing difficulty getting financed--that your 
legislation is so important. This is especially the case for projects 
involving innovative technologies, from efficiency and renewables to 
fossil energy to nuclear power, with higher associated risk--the very 
technologies that may well hold the keys to addressing the climate 
problem, our oil dependence, a deteriorating electric grid, and also 
provide a major stimulus to the faltering economy and U.S. 
competitiveness. And when the economy improves, these Valley of Death 
projects will continue to need the critical financial support that this 
bill provides. Finally, I truly believe that the nation that 
successfully bridges the Valley of Death will lead the energy 
technology race of the 21st century, with extraordinary resulting 
benefits.

    The Chairman. Thank you very much.
    Ms. Yanosek, go right ahead.

 STATEMENT OF KASSIA YANOSEK, FOUNDING PRINCIPAL, TANA ENERGY 
                   CAPITAL LLC, NEW YORK, NY

    Ms. Yanosek. Thank you, Chairman Bingaman, Senator 
Murkowski, and other members of the committee, for the 
opportunity to testify today. It is an honor to speak to you on 
CEDA.
    My name is Kassia Yanosek and I am a Founding Principal of 
Tana Energy Capital, an energy investment and advisory firm. At 
Tana I evaluate and execute investments in energy companies. 
Prior to founding Tana, I was a senior investment professional 
at a private equity firm called Hudson Clean Energy Partners 
and have worked at Bechtel and BP investing in both traditional 
and renewable energy.
    As an investor, I see firsthand the need for funding clean 
energy technologies at scale. Significant capital is needed for 
moving technologies from pilots to deployment, capital that 
does not fit the risk-return profiles of traditional investors. 
These technologies are stuck in the commercialization gap. As 
an investor, I find that term to be slightly more palatable 
than ``the valley of death.''
    The bill being discussed today, CEDA, would be an important 
solution to this funding need. Today I will highlight the 
following 5 key points:
    No. 1, the flow of clean energy investment of recent has 
weakened toward western markets;
    No. 2, transitioning to a cleaner energy economy in a 
volatile funding environment requires investing today in 
tomorrow's winners;
    No. 3, a key impediment for the private sector is funding 
across the commercialization gap;
    No. 4, CEDA would help bridge the commercialization gap;
    No. 5, in a tight budget environment getting taxpayer bang 
for the buck is critical. CEDA and its one-time capitalization 
would deliver this.
    No. 1, the flow of clean tech investment has weakened 
toward western markets. Clean energy of recent has seen 
tremendous growth. However, when you unpack the data a new 
investment pattern is emerging. Much of the growth has shifted 
to China. Furthermore, government stimulus, which provided 20 
percent of clean energy investment last year, has masked the 
true flow of capital. As these programs phaseout and budgetary 
realities sink in, investors are faced with uncertainty and the 
aftermath of a subsidy-driven cycle which has propped up the 
industry.
    No. 2, transitioning to a cleaner energy economy requires 
investing today in tomorrow's winners. Only one-eighth of all 
clean energy investment worldwide has gone to innovation. While 
we need investment across the entire technology development 
cycle, we have failed to prioritize funding the 
commercialization of innovations that have a much better chance 
of reaching cost parity with conventional energy.
    No. 3, a key challenge is funding the commercialization 
gap. I recently evaluated a first commercial biomass technology 
in Europe, which will help utilities supplement their coal use. 
This project and many other first commercial projects I 
evaluate requires significant dollars to prove out their first 
facility. In this particular case, $100 million was already put 
into this technology, much from a European government. This 
type of capital just doesn't exist without government support.
    Coal-based utilities exposed to upcoming EPA regulations 
are concerned about future generation mix and how innovations 
will fit into their investment choices. My experience in 
working with these utilities is that they too would benefit 
from policies like CEDA.
    No. 4, CEDA will help to bridge the commercialization gap. 
By lowering financial risk to private investors, CEDA will 
unlock hundreds of billions of capital off the sidelines. An 
important aspect of CEDA is its broad array of financial tools. 
Various debt products and the ability for CEDA to participate 
as a member of an investor syndicate is important. These tools 
expand DOE's ability to provide solutions for a range of 
investments because, believe me, every investment is unique. 
Structured as a separate administration within the DOE, CEDA's 
substantial independence will provide a nimbleness which has 
eluded DOE's loan guarantee programs.
    Finally and importantly, CEDA is designed to become self-
sustaining. Profit participation is one mechanism which will 
allow CEDA to be compensated for risk with up side in 
successful investments. This and other fee-generating revenues 
will reduce CEDA's dependence on budgetary outlays so it is 
only needing a one-time capitalization. This in my view is 
fiscally responsible and as a taxpayer I like to see this.
    In closing with point No. 5, policies which give taxpayer 
bang for the buck are critical. CEDA will put smarter, more 
efficient government dollars to work in partnership with the 
private sector. This evergreen program will provide taxpayers a 
deal, particularly when compared to other programs which deploy 
grants with no return. The section 1603 grant program, for 
example, will approximately cost $10 billion through the end of 
2011, which is about equal to CEDA's one-time capitalization.
    CEDA presents an opportunity for Congress to act with 
fiscal awareness and put the higher priority on innovating 
today with an eye toward competitiveness, energy security, and 
less-polluting energy for tomorrow. In this tight budgetary 
environment, it's an opportunity we shouldn't miss.
    Thank you.
    [The prepared statement of Ms. Yanosek follows:]
 Prepared Statement of Kassia Yanosek, Founding Principal, Tana Energy 
                       Capital LLC, New York, NY
                              introduction
    Thank you Chairman Bingaman, Senator Murkowski, and other members 
of the Committee for the opportunity to testify today. It is an honor 
to speak to you on CEDA and the importance of this legislation to the 
clean energy investment community.
    I am Kassia Yanosek, a Founding Principal of Tana Energy Capital, 
an energy investment and advisory firm. As a principal of Tana, I 
evaluate and execute investments in energy technologies. Much of my 
work has been focused on investments in technologies of interest to the 
electrical utility sector. I work with utilities around the country to 
understand their perspective on innovative energy technologies and how 
they expect to diversify their generation portfolios, and improve their 
transmission systems. Prior to founding Tana Energy Capital, I was a 
senior investment professional at Hudson Clean Energy Partners, a 
billion dollar private equity firm focusing on renewable energy. I have 
also worked at Bechtel and at BP, making investments in both renewable 
and traditional energy.
the need for programs like ceda to advance u.s. clean energy innovation 
                               leadership
    As an investor and advisor to companies seeking capital for 
deployments of clean energy technologies, I see firsthand the critical 
need for funding to deploy clean energy technologies at scale. 
Significant capital is often needed to move technologies from pilot 
testing to deployment--capital that does not fit the risk/return 
profiles of venture, private equity, or debt financing. As such, these 
technologies and projects are stuck in the ``Commercialization Gap''. 
The bill being discussed today--the Clean Energy Deployment 
Administration (CEDA)--would be an important solution to this funding 
need which I will describe in further detail.
    In my testimony today, I would like to offer my observations on 
capital flows for clean energy, the funding needs of the 
Commercialization Gap, and my view on how CEDA would help to solve this 
challenge and increase U.S. competitiveness. CEDA has a focused purpose 
to promote affordable financing for clean energy technologies and 
projects which would not get financing otherwise. CEDA will help to 
improve U.S. competitiveness in clean energy and reduce the cost of new 
energy technologies. Support for breakthrough technologies developed 
and deployed domestically could strengthen U.S. clean technology 
leadership and lay the groundwork for a competitive U.S. export market.
    In this time of fiscal austerity, I see CEDA as a win-win for the 
American people, legislators, and energy companies alike.
    Today I will highlight the following key points:

  <bullet> The flow of investment in the clean energy sector has 
        strengthened towards emerging markets such as China, and 
        weakened towards Western markets, where flow is slowed by 
        policy uncertainties and low natural gas prices. Recent data 
        for Q1 2010 demonstrate this shift.
  <bullet> Accelerating our transformation to a cleaner energy 
        economy--and enabling the U.S. to compete abroad--requires the 
        adoption and scale-up of new technologies that have the 
        potential to compete dollar-for-dollar with conventional 
        technologies over the long haul.
  <bullet> A key impediment for the private sector is funding 
        innovative companies and projects that fall into the 
        ``Commercialization Gap'': investments which are too capital-
        intensive for venture capital, but too risky for private 
        equity, project or corporate debt financing.
  <bullet> As currently designed, CEDA would provide various types of 
        credit supports to stimulate private sector investment and help 
        bridge the commercialization gap.
  <bullet> In today's state of fiscal austerity and budgetary concerns, 
        getting taxpayer ``bang for the buck'' is critical. CEDA's 
        focus and structure would enable the program to be capitalized 
        only once, yet provide long-lasting benefit.
The current state of clean energy investment globally and in the U.S.
    The global clean energy industry has seen tremendous growth in 
recent years. According to Bloomberg New Energy Finance, 2010 was a 
record year for invest investments worldwide, topping $243 billion. In 
the past five years, growth rates have topped 25 percent. However, when 
you unpack the data, it is clear that a new investment pattern is 
emerging. Much of the recent investment growth has shifted from Western 
economies to growth economies such as China. Last year, investment in 
China was up 39% to $51.1bn, larger than any one country.\1\ 
Furthermore, 2010 investment was kept strong by temporary government 
stimulus programs, which made up one-fifth of investment in clean 
energy worldwide.\2\ As these programs phase out and budgetary 
realities sink in, investors are faced with uncertainty which in turn 
limits investment in both innovative clean energy technologies--such as 
energy storage--as well as conventional clean energy projects such as 
wind farms and nuclear plants. Early data showing investment trends in 
the first quarter of 2011 demonstrate how policy uncertainty impacts 
investment. Q1 2011 saw much weaker investments ($31bn) which is down 
30% from Q4 2010.\3\ Much of this decline in growth can be attributed 
to policy uncertainties in Europe, as well as low natural gas prices 
which have impacted U.S. investments. For example, in 2010, the number 
of new wind turbine installations in the U.S. fell by almost half.
---------------------------------------------------------------------------
    \1\ Bloomberg New Energy Finance; Morgan Stanley.
    \2\ Bloomberg New Energy Finance.
    \3\ Ibid.
---------------------------------------------------------------------------
Accelerating our transformation to a cleaner energy economy requires 
        the adoption and scale-up of new technologies
    Whether the fiscal realities will strengthen or weaken the clean 
energy industry will depend on how policymakers prepare for it. In my 
view, a root cause of today's investment uncertainty is a boom-bust 
cycle of short term policies that have encouraged investment in 
conventional clean energy projects. Nearly seven-eighths of all clean 
energy investment worldwide has gone to deploying mature clean energy 
technologies such as wind power. Only a tiny share focuses on 
innovation. While we need both types of investment, more attention 
should be placed on accelerating the adoption of innovative 
technologies that stand a better chance of competing with conventional 
energy over the long haul.
    Accelerating the transfer of energy technology from the lab to 
commercial deployment is critical for the United States, now more than 
ever. Impending clean air regulations will require utilities to 
retrofit or replace a significant number of coal-fired power plants 
with cleaner options. Energy storage innovations are needed to support 
intermittent energy sources such as wind and solar power, which only 
produce power when the wind is blowing or the sun is shining. And grid 
modernization is critical as ``smart-grid'' technologies come online 
and nascent markets such as electric vehicles and customer-driven 
demand-side management provide new challenges for managing the 
electrical grid.
A key impediment for the private sector is funding for innovative 
        companies and projects that fall into the ``Commercialization 
        Gap''
    It is vital that we find a solution to accelerate the 
commercialization of new technologies and the requisite financing 
needed for their full-scale deployment. Many commercialization 
investments are stuck in a so-called ``Commercialization Gap'' (Figure 
1). They are plagued by a lack of financing, technology adoption risks, 
and poor coordination among product manufacturers, financial investors, 
and the utilities that would deploy these technologies. Significant 
capital is often needed to move technologies from pilot testing to 
deployment--capital that most utilities and financial institutions are 
unable or unwilling to put at risk. Furthermore, technology adoption 
risks--driven, for example, by uncertainty around technical standards--
have held back deployment capital, particularly for investments in grid 
modernization technologies.
    In my day-to-day work as an investor and advisor to energy firms, I 
see these challenges first hand. For example, I have recently evaluated 
a second-generation biomass technology in Europe which, if 
commercialized at scale, has the potential to help utilities supplement 
their use of coal with a product that is renewable, will significantly 
reduce their ``carbon'' footprint, and do so with a pricing structure 
for the product that is not too dissimilar to coal's pricing today. 
This project and many other technologies I evaluate require significant 
capital expenditures to prove out a first generation facility--capital 
that is difficult to access without government support prior to proof 
of commercial viability.
    I also see the challenges that utilities face regarding the 
commercialization gap. In contrast to venture or private equity, 
utilities enjoy a low cost of capital. However, it is difficult for 
them to justify risky commercialization investments to their 
shareholders or ratepayers. For utilities with significant coal 
portfolios subject to upcoming EPA regulations, there is a concern 
about the future generation mix and how technological innovation will 
fit into their investment choices. My experience in working with these 
firms is that they also would benefit from policy moving towards 
technological innovation instead of away from it. Some of these 
utilities have announced plans to pursue clean coal projects with their 
Chinese counterparts. These partnerships signal China's intent to 
develop its capability and competitiveness in clean energy innovation.
[Note: ``Figure 1: Definition of the Commercialization Gap'' has been 
retained in committee files.]
CEDA would provide various types of credit supports to stimulate 
        private sector investment and help bridge the commercialization 
        gap
    To help close the commercialization gap, the U.S. government can 
lower the financial risks the private sector faces in investing in the 
deployment of breakthrough technologies. CEDA's credit support products 
will do just this, improving the risk/return profile for these risky 
yet capital intensive technologies and enable private sector capital to 
move off the sidelines. Loan guarantees have already proven essential 
to promising large-scale solar projects and to firms that test new 
technologies to burn coal more cleanly. CEDA, as drafted, would 
incorporate the existing loan guarantee program and improve upon it. 
Important aspects of CEDA include the following:

  <bullet> Emphasis on breakthrough technologies.--This emphasis 
        addresses the Commercialization Gap funding challenge and 
        serves to move private capital off the sidelines by improving 
        the risk/return profile of commercialization-stage 
        technologies. CEDA's portfolio approach will pool risk and 
        diversify investments. This allows for losses on some 
        investments to be offset by gains on others.
  <bullet> A broad array of tools to accelerate the deployment of clean 
        energy technologies.--Credit support includes loans, loan 
        guarantees, insurance products, and debt instruments that allow 
        CEDA to participate as a co-lender or member of an investor 
        syndicate. CEDA may also provide indirect market support to 
        develop securitized products. These tools enhance and expand 
        the ability for the DOE to provide tools for a range of 
        technologies and projects.
  <bullet> A separate administration within the Department of Energy, 
        similar to FERC.--CEDA's separate Administrator and Board of 
        Directors would provide CEDA substantial independence within 
        DOE, much like FERC. This independence will likely help to 
        reduce lengthy review processes which have challenged the loan 
        guarantee programs.
  <bullet> Funding mechanisms which permit CEDA to become self-
        sustaining.--Profit participation, as defined in the CEDA 
        legislation, will allow CEDA to be compensated for risk with 
        upside in successful companies and/or projects. This is one 
        mechanism by which CEDA could self-fund over time, similar to a 
        mechanism employed by the Overseas Private Investment 
        Corporation (OPIC) Fund Program. OPIC provides loan guarantees 
        to private sector funds in return for a preferred government 
        return. Achieving self-funding status is a significant goal as 
        it would permit CEDA autonomy from the appropriations process.

    For my detailed analysis of CEDA in the American Clean Energy& 
Leadership Act, passed by the Senate Energy Committee 6/29/2009, Please 
see APPENDIX A,* ``The Clean Energy Deployment Administration (CEDA): A 
comparison of the Senate, House and Green Bank Proposals, April 10, 
2010.''
---------------------------------------------------------------------------
    * Document has been retained in committee files.
---------------------------------------------------------------------------
    In the current state of fiscal austerity and budgetary concerns, 
getting taxpayer ``bang for the buck'' is critical. CEDA's focus and 
structure would enable the program to be capitalized only once, yet 
provide long-lasting benefit.
    In closing, CEDA is a much-needed policy mechanism to provide 
smarter, more efficient government dollars to work in partnership with 
the private sector for technologies which have a chance to become cost-
competitive with conventional energy. The one-time $10 billion 
capitalization needed for this evergreen program provides taxpayers a 
``bang for their buck'', particularly when compared to other government 
programs which have deployed capital for clean energy in the form of 
grants with no return. According to PREF, the Section 1603 Treasury 
Grant program is expected to cost approximately $10 billion through the 
end of 2011, equal to the one-time capitalization needed by CEDA.
    CEDA presents an opportunity for the U.S. government to enact a 
fiscally responsible, sustainable policy that puts a higher priority on 
innovating today with an eye towards competitiveness, energy security, 
and less polluting energy for tomorrow. In this tight budgetary 
environment, this is an opportunity Congress should not miss.

    The Chairman. Thank you very much.
    Mr. Guith, why don't you go right ahead.

  STATEMENT OF CHRISTOPHER GUITH, VICE PRESIDENT FOR POLICY, 
     INSTITUTE FOR 21ST CENTURY ENERGY, CHAMBER OF COMMERCE

    Mr. Guith. Thank you. Chairman Bingaman, Ranking Member 
Murkowski, members of the committee: I am Christopher Guith, 
the Vice President for Policy at the Institute for 21st Century 
Energy, an affiliate of the United States Chamber of Commerce. 
The U.S. Chamber is the world's largest business federation, 
representing the interests of more than 3 million businesses, 
organizations of every size, sector, and region.
    In 2008 the Energy Institute issued its foundational policy 
document, the Blueprint for Securing America's Energy Future, 
where we laid out the structure of a truly comprehensive energy 
policy ranging from increasing the efficient production and use 
of energy to expanding access to America's energy resources, 
like oil, natural gas, and coal, to ensuring that we are 
producing the necessary engineers, scientists, and skilled 
workers, not only to design and to build the infrastructure of 
tomorrow, but also to maintain our existing infrastructure now. 
We made nearly 90 actionable and substantive recommendations 
that, if adopted, would secure our energy future.
    One of the central themes of our blueprint is technology 
deployment. Irrespective of regulatory regimes we decide to 
impose in the future, it is clear that the development and, 
more importantly, deployment of newer, more efficient and 
cleaner energy technologies will be needed to secure our energy 
future.
    We often hear calls for Manhattan or Apollo Projects to 
answer our energy prayers, but I would respectfully argue that 
these proposals miss the mark because they fail to recognize 
existing technology developed and do not address the structural 
issues that hamper the deployment of any new technology.
    The U.S. does not want for energy technology development. 
As has been mentioned already, nearly every technology in use 
or, frankly, even discussed today owes its invention, 
discovery, or improvement to America's industry, national 
laboratories and academic institutions. While we absolutely 
need to maintain a commitment to robust R and D and encourage 
novel approaches like ARPA-E, it is the initial deployment of 
new technologies that is the biggest barrier to their 
commercialization.
    Unconstrained, markets operate in a risk-reward paradigm--
the higher the potential risk, the higher the potential 
reward--and generally fall on the risk-averse side when 
considering the development of new technologies, especially in 
the energy industry.
    Clean energy technologies face multiple structural 
inefficiencies in financial markets, inefficiencies that limit 
their ability to deliver their desired benefits of energy 
security, environmental quality, and economic development. 
These inefficiencies include financing bottlenecks along the 
technology development pipeline, the inability of the market to 
fully account for societal costs and benefits, and the current 
infrastructure optimized for traditional energy sources.
    Over the past 6 or 7 years, the Federal Government has 
authorized an array of policy tools to overcome these 
structural inefficiencies and accelerate clean energy 
deployment. But the slow pace and sometimes intransigence of 
the Federal bureaucracy limits to impacts of those existing 
policies.
    An entity like CEDA as included in ACELA in the last 
Congress could provide the flexible financial risk management 
tools currently employed to advance other long-term goals, for 
example exports at the Export-Import Bank and emerging market 
investment at OPIC, or the Overseas Private Investment 
Corporation, and could add these to our capital-intensive clean 
energy goals. This is why we supported CEDA in 2009 and 
continue to support it today.
    I realize that there have been various versions of clean or 
green energy bank proposals considered. Often they are intended 
to help any or all clean technologies or sometimes just a 
select few. Mr. Chairman, this committee's version of CEDA is 
eloquently tailored to address the primary problem of 
commercializing technologies because of their newness and 
inherent technological risk, while doing it in a technology-
neutral fashion.
    I must be clear. The label ``clean energy'' is not reserved 
solely for renewables, but must be accurately applied to any 
and all new technologies and processes that reduce 
environmental impact, whether it be clean coal, advanced 
biofuels, natural gas vehicles, or natural gas as a 
transportation fuel, advanced nuclear or energy storage, just 
to name a few.
    It is also important to point out that much has changed 
since this committee reported ACELA last Congress. The 
country's debt and deficit have grown to damaging and 
unsustainable levels. We would encourage a broader discussion 
of how to capitalize CEDA reflecting our fiscal realities. 
Perhaps a quicker infusion of private capital through Federal 
bond offerings could reduce budgetary impacts.
    Additionally, CEDA must be structured to operate revenue-
neutral and could be required to pay any initial capital 
infusion from taxpayers to the U.S. Treasury through successful 
operation.
    In summary, clean energy can provide many societal benefits 
not easily captured by normal market forces. Independent 
agencies have furthered national priorities in the past and 
successfully carried out important roles that traditional 
Federal agencies are not designed to fulfill. The urgency and 
scale of energy security, environmental quality and job 
creation requires greater access to the full Federal policy 
portfolio to accelerate the clean energy investment necessary 
to meet our national energy goals. CEDA combines a domestic 
energy mission with sophisticated financial risk management 
skills to bring emerging clean energy technologies to the 
market significantly faster than would occur under current 
market conditions.
    Thank you.
    [The prepared statement of Mr. Guith follows:]
  Prepared Statement of Christopher Guith, Vice President for Policy, 
         Institute for 21st Century Energy, Chamber of Commerce
    Thank you, Chairman Bingaman, Ranking Member Murkowski, and members 
of the Committee. I am Christopher Guith, vice president for policy of 
the Institute for 21st Century Energy (Institute), an affiliate of the 
U.S. Chamber of Commerce. The U.S. Chamber of Commerce is the world's 
largest business federation, representing the interests of more than 
three million businesses and organizations of every size, sector and 
region.
    The mission of the Institute is to unify policymakers, regulators, 
business leaders, and the American public behind common sense energy 
strategy to help keep America secure, prosperous, and clean. In that 
regard we hope to be of service to this Committee, this Congress as a 
whole, and the Administration.
                         the deployment hurdle
    In 2008, the Energy Institute issued its foundational policy 
document, Blueprint for Securing America's Energy Future, where we laid 
out the structure of a truly comprehensive energy policy, from 
increasing the efficient production and use of energy to expanding 
access to the America's energy resources like oil, natural gas, and 
coal, to ensuring we are producing the necessary engineers, scientists, 
and skilled workers not only to design and to build the infrastructure 
of tomorrow, but also to maintain our existing energy infrastructure. 
We made nearly 90 actionable and substantive recommendations that if 
adopted, would secure our energy future.
    One of the central themes of our Blueprint is technology 
deployment. Irrespective of regulatory regimes we decide to impose in 
the future, it is clear that the development and deployment of newer, 
more efficient, and cleaner energy technologies will be needed to 
secure our energy future. We often hear calls for a ``Manhattan'' or an 
``Apollo'' project to answer our energy prayers, but I would 
respectfully argue that these proposals miss the mark because they do 
not address the structural issues that hamper the deployment of any new 
energy technology.
    The United States does not want for energy technology development. 
Nearly every technology in use, or even discussed, today owes its 
invention, discovery, or improvement to America's industry, National 
Laboratories, and academic institutions. While we absolutely need to 
maintain a commitment to robust research and development and encourage 
novel approaches like Advanced Research Project Agency--Energy (ARPA-
E), it is the initial deployment of new technologies that is the 
biggest barrier to their commercialization.
    Unconstrained, markets operate in a risk-reward paradigm--the 
higher the potential risk, the higher the potential reward--and 
generally fall on the risk averse side when considering the deployment 
of new technologies, especially in the energy industry. Clean energy 
technologies face multiple structural inefficiencies in financial 
markets, inefficiencies that limit their ability to deliver the desired 
benefits of energy security, environmental quality, and economic 
development.
    These inefficiencies include: financing bottlenecks along the 
technology development pipeline; the inability of the market to fully 
account for societal costs, and benefits; and a current infrastructure 
optimized for traditional energy sources. Over the past six years, the 
federal government has authorized an array of policy tools to overcome 
these structural inefficiencies and accelerate clean energy deployment, 
but the slow pace, and sometimes intransigence, of the federal 
bureaucracy limits the impact of those existing policies.
    A quasi-governmental agency like the Clean Energy Development 
Administration (CEDA), as included in the American Clean Energy and 
Leadership Act of 2009 (ACELA), could provide the flexible financial 
risk management tools currently employed to advance other long-term 
goals (e.g. exports at the Export-Import Bank and emerging market 
investment at the Overseas Private Investment Corporation) to our 
capital-intensive clean energy goals. This is why we supported CEDA in 
2009 and continue to support it today.
    I realize that there have been various versions of clean or green 
energy bank proposals considered. Often, they are intended to help any 
and all ``clean'' technologies, or sometimes just a select few. Mr. 
Chairman, this Committee's version of CEDA from ACELA is elegantly 
tailored to address the primary problem of commercializing technologies 
because of their newness and inherent technological risk, while doing 
it in a technology-neutral fashion. I must be clear, the label ``clean 
energy'' is not reserved solely for renewables, but must be accurately 
applied to any and all new technologies and processes that reduce 
environmental impact, whether it be clean coal, advanced biofuels, 
natural gas vehicles, advanced nuclear, or energy storage to name a 
few.
    The ability to acquire financing is not the only hurdle to clean 
energy deployment. Our existing siting process has proven to be an 
absolute obstacle for dozens of clean energy projects. Without 
substantive reform to the current National Environmental Policy Act 
(NEPA) process, clean energy deployment will not reach its potential. 
The same applies to the siting of necessary infrastructure to support 
greater deployment (and cost reduction) of clean energy, such as 
interstate transmission siting.
    It is also important to point out that much has changed since ACELA 
was reported out of this committee. The country's debt and deficit have 
grown to damaging and unsustainable levels. We would encourage a 
broader discussion of how to capitalize CEDA reflecting our fiscal 
realities. A quicker infusion of private capital through federal bond 
offerings could reduce budgetary impacts. Additionally, CEDA must be 
structured to operate revenue-neutral and could be required to repay 
any initial capital infusion from tax-payers to the U.S. Treasury 
through successful operation.
                         financing bottlenecks
    Limited access to capital is the primary impediment to the timely 
market penetration of clean energy infrastructure. While the price of 
clean energy has significantly declined over the past 30 years due to 
research and development investments, meeting national energy goals 
implies accelerated market penetration and greater capital investments 
in the raw materials of the concrete and steel necessary to build the 
infrastructure needed to generate power, produce alternative fuels, or 
manufacture batteries.
    Before advancing national energy goals, an energy technology must 
evolve from a discovery, to a laboratory experiment, to a technology 
venture, and to an infrastructure development project. The private 
sector often struggles to overcome the unique challenges of 
transitioning between each stage. Incremental research and development 
funding improves the quantity and quality of technologies coming off 
the lab bench, but does not address the unique risks between a 
technology venture and a large-scale infrastructure project.
    Project finance investors, who manage access to large volumes of 
low-cost capital, are riskaverse as they seek to protect and grow their 
investments. In general, investors will give small amounts of capital 
to risky projects in hopes of high returns, but offer large volumes of 
capital to lower risk opportunities in expectation of secure, 
predictable returns.
    Multi-billion dollar energy projects face multiple risks, including 
engineering risks, construction risks, commodity risks, execution 
risks, resource risks, technology risks, permitting risks, and policy 
risks. While clean energy projects can mitigate a majority of these 
risks using normal project development processes, overcoming the 
technology hurdle will take years if left to business-as-usual market 
processes. Mitigating technology risk traditionally takes years of 
waiting for the empirical results of a pilot project, a demonstration 
facility, a semi-scale facility and then a full commercial scale 
project. This lengthy process has resulted in multiple technologies 
demonstrating promising laboratory results but failing to meet national 
energy goals because they never reached full commercial scale.
    Before the recent financial crisis reversed the upward trajectory 
of clean energy investment, the market began to respond to the need for 
clean energy capital investment, with worldwide investment more than 
doubling in recent years. The baseline, however, is quite small, and 
unprecedented growth is required. CEDA could offer tools aimed at 
catalyzing private market investment, and thereby accelerate the 
maturity and large scale delivery of clean energy.
                          undervalued benefits
    Clean energy possesses to various degrees and in various ways three 
societal benefits the free market has difficulty pricing: energy 
security, environmental quality, and economic development. Competitive 
markets efficiently deliver optimized results for the costs and 
benefits directly assumed by the buyer and seller. Competitive forces 
will yield optimized societal results if all of the costs and benefits 
of the transaction are solely assumed by the buyer and seller. If costs 
or benefits are imposed on or enjoyed by parties other than the buyer 
and seller, competitive forces will depart from the optimal societal 
outcome, as is the case in clean energy.
    Energy Security.--Oil is not traded in a free market. The members 
of the Organization of Petroleum Exporting Countries (OPEC) control 67% 
of proven oil reserves and 40% of current production. The United States 
is 95% reliant on oil for transportation and consumes approximately 25% 
of the global oil supply on an annual basis. While the U.S. is the 
world's third largest oil producer, our domestic production only covers 
approximately 40-50% of our demand. The remaining 60% we import largely 
from countries in the western hemisphere. But since petroleum from any 
country can be refined into gasoline, the price we pay is set by the 
world market's supply and demand balance.
    Everything else being equal, the proliferation of free trade and 
oil market globalization has lowered the average price of petroleum and 
decreased the magnitude of volatility caused by domestic disruptions 
(e.g. Hurricane Katrina or Alaskan pipeline maintenance) but has 
increased the frequency of volatility as international disruptions now 
affect our markets. While these disruptions may be the result of 
natural causes, this inter-linkage exposes our energy, national, and 
economic security to terrorist acts on foreign oil assets and the 
intentional manipulation of the oil market by OPEC.
    OPEC, a self-proclaimed international cartel, benefits from both 
the highs and lows of oil markets. They capture large profits during 
periods of high prices and capture market share during times of low 
prices as higher-cost producers leave the market (e.g. like we have 
seen recently in the U.S. biofuels industry). Anti-trust laws in the 
United States restrict anti-competitive collusion to protect free 
market forces, but national jurisdictional boundaries limit the tools 
available to counteract international collusion.
    Recent developments in the oil and natural gas exploration and 
production provide a fitting example to how quickly and profoundly 
technology can change the landscape and improve our energy security. 
Commercial utilization of advanced seismology, hydraulic fracturing, 
and horizontal drilling have enabled the country to increase 
domestically produced oil for the first time in years. The potential 
for further increasing domestic production is tremendous as these new 
technologies are utilized at larger scales. One of the only limiting 
factors to this positive trend is access limitations.
    Mitigating exposure to oil market volatility requires energy 
resource diversification and the availability of ready oil substitutes. 
While such mitigation presents strong benefits to society atlarge, the 
downside risk of low prices impacts alternative energy producers. 
Alternative energy reduces oil dependence and price volatility by 
harnessing domestic resources such as natural gas, electricity, 
advanced biofuels, and coal.
    Environmental Quality.--While reliable and affordable energy raises 
society's standard of living, methods of energy production often incur 
environmental costs not naturally priced by the free market, and these 
costs are not always integrated into the cost of energy production. The 
environmental costs of clean energy technologies are in many cases 
lower than those of conventional energy sources.
    Economic Development.--Free market economics encourage producers to 
seek the lowest cost of production. Multi-national corporations often 
benefit from the cost savings of more favorable regulatory environments 
and lower cost labor in developing nations, but corporate accounting 
does not allow them to capture the indirect benefits of the economic 
development in their home nation caused by local job creation. The 
global goals for clean energy require substantial job creation in 
industries currently on the margins of the economy. Creating a more 
favorable regulatory environment and utilizing American labor will 
create domestic economic development by displacing imported products 
and creating new export industries.
                  overcoming incumbent infrastructure
    Clean energy also faces an incumbent infrastructure specifically 
designed to maximize efficient production, delivery, and consumption of 
.traditional energy. Historical U.S. energy policy primarily focused on 
delivering low-cost, reliable energy. To advance those goals we have 
built an infrastructure of pipelines, pumps, transmission lines, 
refineries and generating stations. Today, each new unit of fossil 
energy production and delivery is made dramatically cheaper by the 
trillions of dollars of infrastructure investment made decades ago.
    While clean energy can leverage some of the existing 
infrastructure, most of the assets are geographically optimized to 
connect rich fossil regions and centralized generation stations with 
demand centers. Clean energy's distributed, intermittent, and often 
remote resource profile requires a different infrastructure design. 
While economically feasible in some markets, clean energy's 
infrastructure build out is slowed by the lengthy permitting processes. 
The stable flow of capital to clean energy projects, enabled by CEDA, 
would encourage infrastructure developers to enter the lengthy 
permitting process by providing the expectation that clean energy 
projects will be financed and built.
                 restrictive federal agency management
    The magnitude and complexity of the challenges associated with 
emerging energy technologies demands professional and dedicated 
financial risk management. While investment in clean energy 
technologies is wholly consistent with the mission of the Department of 
Energy (DOE), the cumbersome rules, leisurely pace, and bureaucratic 
intransigence of traditional federal agencies, especially the Office of 
Management and Budget, restrict the management flexibility and 
acquisition of skills necessary to manage financial risk intelligently 
and in a consequential timeframe. An independent, quasi-governmental 
agency, such as CEDA, would be able to more effectively administer 
energy financial services and would avoid the improbable task of 
reforming an existing Federal entity, such as DOE.
    Existing quasi-governmental agencies possess sophisticated capital 
risk management expertise, and have established a strong track record 
of furthering national goals. Existing entities, however, would need 
substantial changes to their charters to accommodate the task of 
domestic energy investment and lack deep energy domain expertise. A new 
quasi-governmental agency modeled after successful examples, such as 
the Export-Import Bank and the Overseas Private Investment Corporation, 
could combine a domestic energy focus with the necessary management 
flexibility.
    Given the potential energy security, environmental quality and 
economic development benefits potentially generated by clean energy, 
the government can play a unique role by supporting firstof-a-kind 
commercial scale faculties that mitigate technology risk for future 
project developments by providing an empirical reference case. Such 
support, though, must be done responsibly through intelligent, flexible 
and swift mechanisms absent in traditional federal agencies. CEDA could 
advance national energy goals by filling financing gaps with the 
professional risk management of financial products designed to support 
the scaling of clean energy projects.
                               conclusion
    Clean energy possesses the societal benefits of energy security, 
environmental quality and economic development not easily captured by 
normal market forces. Independent, quasigovernmental agencies have 
furthered national priorities in the past and successfully carried out 
important roles that traditional federal agencies are not designed to 
fulfill. The urgency and scale of energy security, environmental 
quality, and job creation requires greater access to the federal policy 
portfolio to accelerate the clean energy investment necessary to meet 
our national energy goals. CEDA combines a domestic energy mission with 
sophisticated financial risk management skills to bring emerging clean 
energy technologies to the market significantly faster than would occur 
under current market conditions.

    The Chairman. Thank you very much. Thank you all for your 
excellent testimony.
    Let me start with a few questions. Mr. Silver, first let me 
ask you. You talked about some of the lessons that have been 
learned with the current loan guarantee program and what you've 
achieved there. You also I think talked about how CEDA would 
provide additional flexibility and tools to achieve some of the 
results that we're all agreed upon are important. Could you 
elaborate a little bit on that as to what are the lessons 
particularly that this new flexibility or these new tools would 
help to respond to?
    Mr. Silver. Sure. Thank you for the question, Senator. The 
3 or 4 topics I made reference to with respect to early lessons 
learned were around timeframes, the limited utility of project 
finance as the sole financing vehicle, the unique requirements 
that small businesses face as well.
    I might add a couple of other lessons learned to that. One 
is that obviously ensuring that we have the capability of 
hiring folks with deep expertise in the analysis and 
negotiation and structuring of these transactions is essential 
and speaks to a certain extent to special hiring authorities, 
as well as a revisit of the procurement process by which we 
bring consultants in.
    I would only note, not specifically vis a vis CEDA, which 
as you know the administration does not have a formal position 
on, but I would note that in the private sector folks working 
on transactions in this space frequently are able to make use 
of other risk mitigants which they have at their disposal. 
Among them and in no particular order of importance would be 
various kinds of hedging strategies, leveraged leasing 
structures, insurance wrappers, warrant structures, which play 
a kind of de-risking role as well.
    So there are certainly other tools in the arsenal that are 
potentially available and would lead to the most appropriate 
and most tailored results for any individual project.
    The Chairman. Mr. Reicher, you also talked about how, as 
you see it, CEDA would allow for the use of some--I think you 
referred to insurance products, bonds, some other tools. Did 
you want to elaborate on any of that as to what you think is 
not being done now that could be done effectively in this area?
    Mr. Reicher. Mr. Chairman, loan guarantees, as I said, as 
Mr. Silver said, is one of a number of tools that we need in 
the arsenal to get these projects through the valley of death. 
Sometimes in my experience, having financed projects, a loan 
guarantee won't get the job done and an insurance product, 
which are increasingly being developed for these kinds of 
things, could in fact be a good substitute. Bond offerings to 
back these projects.
    I think the ability of this new entity actually to engage 
in what's known under the legislation as profits participation, 
pay itself back, continue to fund the operation of the entity, 
I think that's a very attractive element of this. The simple 
answer, Mr. Chairman, is that the current loan guarantee 
program is a good but limited tool, and it's pretty 
straightforward if you talk to folks in the finance industry 
that if you could add to the arsenal of tools and provide this 
entity with a variety of flexibilities we could be doing a lot 
more, a lot faster, and arguably at less cost and with less 
risk, and finally again, and this is very important in these 
fiscally challenged times, not have to come back to Capitol 
Hill for an additional appropriation.
    The Chairman. Let me ask one other question here. You've 
done a comparison of the Senate and the House and the green 
bank proposals. I think that's part of your testimony. Ms. 
Yanosek, maybe you could just summarize what you concluded with 
regard to the merits of this CEDA proposal the way we have it 
here before the committee?
    Ms. Yanosek. Thank you, Mr. Chairman. The chairman is 
referring to a paper, a white paper that I wrote for the ACELA 
legislation from last year which compared the proposals from 
last year. The conclusion that I made in this comparison was 
that the Senate CEDA--and this is my personal view--is very 
well developed and is very well articulated to, frankly, give 
the opportunity to have the biggest bang for the buck.
    I do believe that having an arm's-length relationship from 
the DOE is important. I also believe that the opportunity to 
have a range of financial products that CEDA would be able to 
administer is important. As I mention in my testimony, we 
have--every investment is different and so having that ability 
is really critical, and I believe that having the ability to 
have profit-generating mechanisms is important so that CEDA may 
continue to be able to self-fund itself.
    Thank you very much.
    The Chairman. Thank you very much.
    My time is up. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Based on what all four of you have said and just repeated 
again here in response to the chairman, Mr. Silver, Mr. 
Reicher, I conclude that you view CEDA as yet one more tool, 
that it is not necessarily something that replaces loan 
guarantees or replaces tax credits or the other financing 
mechanisms or opportunities out there, but that it is yet 
another way that we can offer a process. Is that a somewhat 
correct summation?
    Mr. Reicher. Senator Murkowski, I would say that the way 
you've wisely written the bill, it would in fact incorporate 
the loan guarantee program as one of its several tools, and in 
fact those authorities, the funding would be transferred over 
to CEDA upon its creation as I understand the setup of the new 
organization. That I think is very smart.
    Then added to that is this independence. But I would also 
echo something you mentioned as well. There is a separate array 
of tools that we need outside of CEDA, for example the tax 
credits. Those have been very effective, both investment tax 
credits and production tax credits, for driving investment in 
these technologies. They do need to be reauthorized when they 
come up in 2012 and 2016.
    But CEDA as you've designed it, incorporating the loan 
guarantees and adding to that loan guarantee authority a whole 
host of additional tools, is really what we need to get these 
technologies from nuclear to coal to gas to renewables to 
efficiency through this valley of death.
    Mr. Guith. Senator Murkowski, if I might.
    The Chairman. Mr. Guith.
    Mr. Guith. I think this partially goes back to Chairman 
Bingaman's first question on the difference between House and 
Senate versions of CEDA, in that the version reported out of 
this committee, the scope is much more limited. The version out 
of the House committee--I'm sorry. The version that was passed 
in Waxman-Markey was applicable to virtually, as I noted in my 
testimony, any technology that meets the definition, including 
mature technologies, whereas the version that you passed last 
Congress was neatly tailored to address, as was mentioned in 
various forms, the valley of death, the nascent technologies.
    So to your question, I would say that the loan guarantee 
program in Title 17 at DOE right now fits that same valley of 
death model. So it very easily should be incorporated, not 
impacting existing guarantees. But the other tools that are out 
there should be debated on their own merits, because they 
generally apply and are, frankly, used by mature technologies 
and mature technologies only, and I would argue that CEDA 
should not be open, should not be used, should not be allowed 
to crowd out those nascent technologies by mature technologies.
    Senator Murkowski. Mr. Silver.
    Mr. Silver. Senator, first I'd like to just make clear that 
my comments were really simply an observation that there were 
tools available in the private sector. It didn't address 
directly the question of CEDA one way or the other.
    But I would make--I would add to that litany one other 
general observation about private sector investment and 
investment strategies. That is the use of a portfolio strategy, 
a portfolio approach. As currently structured, the loan 
guarantee program addresses each individual application, each 
individual transaction, on a standalone basis. As I think my 
colleagues here on the panel will describe to you based on 
their private sector investment experience, that is not 
traditionally the way that is handled, and it does have 
implications for the risk profile and therefore by extension 
the speed and nature of the projects that one finances.
    Senator Murkowski. Let me ask the question, because I think 
when we look at tax credits--and I know several of you have 
mentioned that there's uncertainty with those because you never 
know what we here in Congress are going to do. Are they going 
to continue or are they not? Can you bank on them?
    But, having said that, when you think about the tax 
credits, you think about the grants, it's easier to assign a 
value to them than you might be able to with a loan guarantee 
or other financial instruments. Can you quantify the benefit of 
a loan guarantee program in CEDA as we're discussing here, or 
at least discuss kind of in a broader sense how much these 
higher installed cost figures--how they could possibly be 
lowered with Federal involvement in borrowing for the projects?
    When people look at this CEDA, looking at it and saying, 
well, this is a good approach, but $10 billion? How we get 
around that? I appreciate your comments, Mr. Guith, about 
perhaps some suggestions there as to how we might deal with the 
financing of this, a Federal bond offering. But is there 
something that can be done with regards to the loan guarantee 
or with CEDA just as we talk about the numbers, the dollars 
that are involved?
    Mr. Silver. Senator, with respect specifically to the loan 
guarantee program, which is really all I'm qualified to 
discuss, I think that it's important first to step back and 
look at what the objectives of the loan guarantee program are, 
which are essentially to drive innovative technologies to scale 
and to bring them to market in ways that attract private 
capital in. I think the 27 projects we've been able to do, to 
invest in or support across the 3 programs that we administer, 
lends support to that observation.
    In some respects, the intent is to demonstrate that the 
technologies, innovative technologies at scale, work and change 
the risk-reward profile that one of my colleagues here made 
reference to in such a way that it continues to entice and 
bring private capital to bear.
    As part of the mechanism by which we operate, it seems to 
me our responsibility is to leave those sectors once private 
capital has been sufficiently incentivized and to move on to 
other technologies, new and innovative technologies which need 
to be brought to scale.
    The second part of that answer is that the levelized cost 
of energy which in a sense you're referring to is made up of a 
variety of different components, if you will, and many of these 
technologies address independent parts of them. A recent solar 
project we supported changed the mechanics by which you install 
solar paneling. Another provides a unique set of features 
related to the aperture and the management of the apertures, 
and on and on.
    So we're trying to bring a series of these new elements to 
bear because at scale--and this is the point I'm trying to 
drive to--at scale, that drives down the cost of these. The 
reason to focus so explicitly, it seems to me, on commercial 
deployment is because at scale commercial deployment drives 
down unit costs. As unit costs are driven down, we more 
successfully build out our supply chains, and the more 
aggressively we build out our supply chains the more 
aggressively and successfully we can compete at cost around the 
world.
    Mr. Reicher. Senator Murkowski----
    Senator Murkowski. I'm way over my time, but, Mr. Reicher, 
if you want to.
    Mr. Reicher. Very, very quickly, I just wanted to add, 
reflecting another aspect of your question, that we've talked 
today about a $10 billion capitalization of CEDA and I think 
you were asking what could that drive in terms of investment. 
The numbers are quite extraordinary, depending upon how you set 
the so-called loan-loss reserve. If you set it at 10 percent, 
you'd be driving on the order of $100 billion worth of 
investment. You set it at 5 percent, on the order of $200 
billion worth of investment.
    So you get huge, huge leverage out of this. Compared to 
lots of other tools that we use today--grants, as much as I'm a 
big fan of them in certain circumstances, you don't get much 
leverage at all. This would be the biggest source of leverage 
we could find as far as the Federal Government getting money 
deployed for these innovative technologies.
    Mr. Silver. May I add just one other comment, Senator? I 
think what Mr. Reicher said is deeply important. It's important 
also to remember that the loan programs as structured and 
potentially as envisioned going forward are in fact self-
sustaining. That is to say that we charge administrative fees, 
both application fees and monitoring fees, which cover our 
operating costs.
    Perhaps most importantly, it's important to remember that 
these are not grants; they're loans, and as structured we 
expect them to be repaid, and we work to ensure on a monitoring 
basis going forward that they are in fact repaid. So they are 
among the most leverageable of imaginable programs, provided we 
do our work correctly.
    Senator Murkowski. Thank you all.
    The Chairman. Senator Manchin.
    Senator Manchin. Thank you all. I thank all 4 of you for 
your presentations.
    If I may, Mr. Silver, ask you. On the past experience as 
far as CEDA, percentwise what part of your loans are given to 
the so-called renewables versus the mature, such as fossils?
    Mr. Silver. Senator, the number of applications is driven 
in part by the number of applications we receive and in part by 
the funding available for the projects. Actually, advanced 
fossil projects fall into a different bucket, financing bucket, 
if you will, than the renewables do.
    To give you an overview, we have whatever $2.4 billion of 
credit subsidy will generate in the 1705 program, which is 
targeted to renewables and particularly to commercializable 
renewables. There is an $8 billion bucket of funding available 
for fossil projects, and in addition--and not to get too deep 
into the weeds--$2 billion of what's called mixed no-use money, 
which is also available for that, for fossil.
    Senator Manchin. It just seems to me that, with the 
dependency that we have on fossil--in West Virginia we do a 
little bit of everything. We have the largest wind farms. We do 
an awful lot of wind. Solar has not been that great as far as 
development in our State. But of course, you know, coal and of 
course Marcellus shale, natural gas.
    Also, from the DOE we noticed that funding was cut back on 
the deep shale fracking. In a time when we're looking to be 
more--less dependent on foreign oil, it seems like that was an 
unwise move. Do you have any input on that at all or are you 
stepping in to fill the void?
    Mr. Silver. No, Senator. The loan programs focus 
specifically on the financing structures to support emerging 
clean technologies, and so I can't speak for the other 
decisions or discussions around financing elsewhere in the 
Department.
    What I would say is that we do have an active pipeline of 
projects in the advanced fossil space, both in terms of various 
kinds of gasification efforts as well as carbon capture and 
sequestration. As I indicated in my testimony, we just actually 
this past week issued our first term sheet for a very 
significant project, a very, very large fossil-related project.
    Senator Manchin. If I could ask any of the 3 of you to 
chime in on this one. Tax credits. I know you've been talking 
back and forth on the credit systems that we have, offsets and 
credits. I know you know there's a large debate going on about 
that with the oil credits. Do any of you believe that there 
should be a trigger mechanism on credits, to where they 
basically at a certain price level, take oil at $25 a barrel or 
$50 a barrel, that basically the credits go off and come back 
on, to basically--and still there would be a large amount of 
investment made when prices fall, market prices fall, whether 
it be traditional coal, gas, and oil?
    It seems one size fits all and when prices are $100 a 
barrel or $75 a ton of coal or $14 an mcf, the credits just 
keep marching right on. Do you think there could be another way 
of rearranging that?
    Mr. Guith. I certainly do, but let's be careful what we 
call credits. What the Finance Committee has proposed or is 
about to propose includes very direct excise taxes, and yet 
it's called elimination of tax treatment. Raising taxes is 
raising taxes, and that's frankly what folks on both sides of 
the Hill are considering right now.
    I would also----
    Senator Manchin. It's not raising taxes. I think we're 
talking about putting fairness to the system, as it needed it, 
at certain prices. Do you think the credits or the taxes are 
still needed when markets hit certain prices?
    Mr. Guith. Certainly we've discussed the potential of 
perhaps phasing out the blender's credit for biofuels once it 
is economically competitive with gasoline, exactly as you're 
discussing. But I would note that that leaves on the table 
technologies or projects that are, frankly, never competitive 
and never reach their threshold. The question is should they be 
in existence in perpetuity because they never reach a point of 
competition?
    Senator Manchin. I can tell you that credits on thin seam 
coal or the credits on tight sands for drilling basically when 
it goes to $12 and $14 an mcf might not still be needed. But if 
it's around $2, $3, $4 an mcf, you've got to continue to 
stimulate that market so they'll continue to explore.
    If you would, please?
    Ms. Yanosek. I'll just take it to a higher level, which is 
essentially a tax or a cap or something of that nature isn't a 
very efficient mechanism. The question is what is the goal that 
you're going after? Is it energy security, is it lower carbon? 
It really depends on the goal.
    I think there's a distinction that needs to be made 
between, as my colleague said, the difference between 
technologies that are actually going to be, have the potential 
to be cost competitive, and those that will not, that just 
won't get there. I think that what we've seen with the ITC and 
the PTC and some of these mechanisms is that, frankly, we've 
gotten that industry to a quite developed stance and where the 
real need is is for us to actually focus on what we're talking 
about today, which is the commercialization gap.
    Actually, when Senator Bingaman asked me the difference 
between the 2 proposals, the green bank and the CEDA one, the 
biggest one--and it's kind of an oversight because I just focus 
on the commercialization gap and I kind of forget that CEDA 
could potentially focus on some of these technologies that are 
already mature--is that that's a big difference.
    Now, certainly the credit subsidy cost is lower for these 
more conventional technologies like wind, like solar. So you 
could argue that CEDA could leverage more private sector 
dollars. But I don't think that's solving the problem that we 
have today, which is actually thinking more long-term about 
persistent financing challenges for the part of the energy 
technology development cycle where no private capital is going 
to go.
    Senator Manchin. It's not going to go because of the return 
on investment. Basically, if the market's not there and the 
price is so high, we're going to keep plowing money in for 
something that's never going to be competitive.
    Ms. Yanosek. To the point where the risk-return profile 
doesn't make sense. So I will tell you that----
    Senator Manchin. So we've got to continue to give it tax-
supported money to make them viable?
    Ms. Yanosek. For wind and solar, a good percent of that 
return on investment is coming from a government subsidy.
    Senator Manchin. Absolutely. Thank you.
    Mr. Silver. Could I just quickly add? No. 1, on your 
initial question about the relative proportion of funding 
across renewables, fossil, and the like in the loan guarantee 
program, one of the beauties of CEDA is in fact, as you've 
heard, it could take a portfolio approach. It would not be--it 
would not be subject to these narrow categories, you should 
spend X on this and Y on that. So it could look out and say, 
what are the needs in this energy innovation area, and act 
accordingly, just like a smart investment manager would. That's 
No. 1.
    No. 2, with respect to how to help energy technologies move 
forward, I do think the production tax credit and the 
investment tax credit continue to have a role in helping 
current technologies come down the cost curve--wind, solar, 
geothermal, biomass, a whole host of traditional technologies 
as well.
    But, having said that, like my colleagues here, I think we 
do need to look very hard upstream of that, earlier at this 
innovation stage, and ask what else is coming that we really 
need to back if it's going to ever see initial deployment.
    So I think we need to look carefully at the whole set of 
incentives that are out there and, depending upon where we are 
in research, development, demonstration, and deployment, adjust 
the dial accordingly.
    Senator Manchin. Thank you.
    The Chairman. Senator Hoeven, we were just getting to you.
    Senator Hoeven. Sorry, I've got to go.
    The Chairman. You've got other plans.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman, and I thank the 
witnesses this morning. I've got so many questions and I'm 
going to try to stick to my time in deference to my colleagues.
    First, Mr. Reicher, thank you for being here today. Mr. 
Hoeven had to leave. He'll try to come back. But he's a 
graduate of your college, year 1979, as you and I are. So what 
a coincidence 3 of us ended up here together.
    Mr. Reicher. Mr. Portman, I will not tell any stories.
    Senator Portman. Thank you. I appreciate that. You're under 
oath probably, so that makes it particularly problematic for 
me.
    [Laughter.]
    Senator Portman. Listen, thank you for helping us on the 
energy efficiency bill. As you know, we're working on this bill 
with Senator Sheehan. She's not here today, but we appreciate 
your working with us on helping to deploy energy efficiency 
technologies across all sectors of our economy. We think we've 
got some good commonsense stuff in there. A lot of it comes out 
of the work that Senator Bingaman and Senator Murkowski have 
done over the years, and I think that this is something that 
hopefully on a bipartisan basis we can move forward on.
    One of the stated energy technology development goals with 
CEDA I saw is the transformation of building stock of the 
United States to zero net energy consumption. What does this 
mean? Would CEDA be able to help facilitate this transformation 
on the efficiency side, too? Would these loans go directly to 
consumers or would they go to developing energy efficiency 
technology?
    Mr. Reicher. Let me take a stab at that. First of all, CEDA 
as I read it and I think as the committee intends it would in 
fact apply to energy efficiency, innovative approaches to 
energy efficiency. So that's No. 1 and I think that's 
important.
    It would allow, for example, something that we really need 
in the efficiency world and that is how do you take lots and 
lots of small efficiency opportunities, say across a company 
with many, many different manufacturing plants, aggregate 
those, bring in an innovative new technology to address those 
efficiency problems, and get it financed. I think that's a very 
attractive element of CEDA, being able to aggregate what often, 
as you know, in the efficiency world are small opportunities, 
but taken together and financed in a smart way could really 
drive energy efficiency forward.
    The beauty of energy efficiency is, we say that the low-
hanging fruit actually grows back. We're continuing to develop 
new approaches to energy efficiency, but those, just like 
supply side technologies, need to be proven in the market, and 
CEDA would help us do it and I think help U.S. manufacturing 
and help U.S. commercial and residential buildings.
    Senator Portman. I think that's an important point that 
wasn't raised earlier and I look forward to continuing to work 
with you and others on the efficiency side, CEDA or no CEDA.
    Mr. Silver, I appreciate your working with me on the loan 
guarantee program issues. You and I have had this conversation 
before, but, as you know, I'm very concerned about where we are 
with the American Centrifuge Project. There are 2 others in 
Ohio, as you know, the CODA project, and now there's a new one 
in Mansfield, Ohio, Calley Solar, all of whom have applied for 
loan guarantees. If these loan guarantees don't come through, 
it means the loss of thousands of jobs in Ohio. If they do come 
through, it means the addition of even more thousands of jobs. 
So it's a big deal for us in Ohio and incredibly important for 
our energy security going forward with regard to the uranium 
enrichment capacity at the Piketon plant. So thank you for 
working with us on that.
    My question to you today has to do with OMB. It might sound 
funny coming from me, but one of my big concerns is that 
tradeoff from your office to OMB. I understand with regard to 
the American Centrifuge Project there has now been a handoff 
and I appreciate that. But can you talk to us a little about 
that handoff to OMB, how that relationship works, and then 
specifically how a new Clean Energy Deployment Administration 
proposal might improve or change that DOE-OMB relationship?
    Mr. Silver. Yes, Senator, absolutely. Although I didn't go 
to college with you, I'm from Ohio, so I'll be happy to address 
the question.
    Senator Portman. Welcome. We have another Buckeye on the 
panel.
    [Laughter.]
    Mr. Silver. You are correct that the project in question 
has been transferred. Perhaps to provide some background to the 
process, we issue a solicitation, essentially a request for 
proposals, and applications come in. We screen them for 
eligibility and completeness and, assuming they meet that 
initial screen, we then bring them in house for due diligence.
    As we undertake our due diligence on a sort of a parallel 
track, we begin to negotiate the terms of a potential 
agreement. Assuming that we can reach terms with an applicant, 
we prepare the project to move into the review and approval 
process.
    The first thing that happens is that an application is 
reviewed internally at the Department of Energy by something 
called, a group called the credit committee, made up of finance 
professionals and others within the Department, who look at the 
underlying credit instrument. At the same time, we release it 
for review through an inter-agency process. A number of 
different agencies are involved in reviewing it to ensure that 
it meets our obligations to fully protect taxpayer funds and as 
the natural course of events ask us a series of questions about 
these projects. We answer and there's a good healthy back and 
forth.
    Once that project--that process has concluded, it comes 
back inside the Department of Energy to what's called the 
credit review board, made up of the most senior officials in 
the Department, who review it once again.
    We have worked assiduously with our related agencies to 
ensure that the process is as streamlined as it can be. We're 
now trying to work on--we are now working on an expedited 
schedule, which I'm hopeful will have positive benefits in that 
regard. So we are all I think quite clear-eyed about the need 
to make this work as efficiently as possible.
    Senator Portman. Thank you. If you could maybe in writing, 
because my time has expired, give me some sense of how CEDA 
might change that process in relationship particularly to the 
credit subsidy issue and the relation to DOE and OMB.
    Thank you, Mr. Chairman.
    [The information referred to follows:]

    Under the Federal Credit Reform Act (FCRA), the subsidy cost 
reflects the best estimate of the long-term cost to Government of the 
loan or loan guarantee, excluding administrative costs. As with all 
other federal credit programs, OMB's responsibility for determining the 
credit subsidy cost associated with DOE's loan guarantees is found in 
Section 503 of FCRA, which states that the Director of OMB is 
responsible for credit subsidy cost estimates. Under the oversight 
authority in Scection 503, OMB delegates the modeling of credit subsidy 
costs to agencies, and issues implementing guidance to ensure 
consistent and accurate estimates of cost. For new programs or programs 
where actual experience is not available, such as the Title XVII 
program, OMB works closely with agencies to create or revise credit 
subsidy models. DOE has worked with OMB to develop the credit subsidy 
estimation methodology used for the Loan Programs, and OMB approved 
DOE's credity subsidy cost model in 2008. Title XVII loan guarantees 
generally support diverse investments in a wide variety of underlying 
projects, each of which has unique risks and contract terms. Because 
the specific projects and contract terms vary substantially, these loan 
guarantees, to date, have been scored on a loan-by-loan basis.

    The Chairman. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Thank you all for being here, and I'd like to thank the 
chair and the ranking member for making the issue of energy 
finance a priority.
    Since joining this committee, I've traveled all across 
Minnesota to meet with our clean energy leaders and innovators. 
Last week I was at a roundtable with researchers at the 
University of Minnesota, who are doing all kinds of cutting 
edge work on a range of energy issues. The one thing I heard 
over and over again is the need for financing to bridge this 
valley of death problem that we've been talking about, and with 
China and other countries moving ahead, financing is a critical 
piece of our clean energy future that we have to get right.
    Senator Portman was talking about energy efficiency in 
buildings and, Mr. Silver, I want to thank you. The Department 
of Energy helped with a loan to Sage Electrochromics, which 
makes these incredibly energy efficient windows. One issue that 
came up was whether they were renewable or efficiency, and 
since buildings consume about 40 percent of our energy--again, 
they lead the world in this cutting edge technology of blocking 
out the sun during the summer and letting it all in, all the UV 
in, in the winter.
    One of the issues that came up was credit subsidy fees. As 
I've learned from that experience, that fee can potentially 
prevent innovative technologies from benefiting from loan 
guarantees.
    So, Mr. Silver, in your experience are we doing a good job 
of determining the appropriate level of credit subsidy to 
offset risk for the government when issuing loan guarantees? 
Can that--can we be modulating that rate that these companies 
pay in order to promote the innovation that we want to do?
    Mr. Silver. Senator, that issue comes up in the context of 
the fact that there are 2 programs currently that provide loan 
guarantees to renewables projects: one the 1703 program, which 
has as its focus innovative energy technologies; and one the 
1705 program, which, as you know, came into being through the 
Recovery Act of 2009.
    The reason I bring this up is because the 1703 program 
until recently did not in fact have credit subsidies 
appropriated to enable us to support the more innovative 
projects that would struggle with that issue. It is a self-pay 
program. By contrast, 1705 has $2.4 billion of credit subsidy 
available.
    I don't know that the issue is as much what the credit 
subsidy is as to whether or not it is feasible or possible for 
an applicant to pay it. It comes as no surprise, I think, to 
anybody that we have been challenged to make the 1703 
renewables program work in the absence of credit subsidy for 
innovative technologies, in part because if you want to 
substitute a phrase for ``innovative technologies'' you might 
substitute the phrase ``early to mid-stage, relatively thinly 
capitalized,'' often venture-backed companies, as opposed to 
more robust applications introduced by larger sponsors with 
more robust balance sheets.
    That also ties into my earlier observations about the 
various kinds of financing tools and what works and what 
doesn't work. With only project finance, which as I indicated 
requires us to be able to identify cash-flows to match 
repayment schedules, we are challenged to make that work.
    The good news in all of this is that the CR which you have 
approved through the end of this fiscal year provides for the 
very first time credit subsidy, appropriated credit subsidy, in 
1703 and would be available for projects like the one you refer 
to.
    Senator Franken. So it's sort of a trigger, not a sliding 
scale rate? It's either one or the other; it's either you get 
it or you don't, as opposed to determining what the level of 
the credit subsidy would be depending on the need, the 
determined need?
    Mr. Silver. To be more specific, we do in fact identify 
specific credit subsidy scores for particular projects and 
those do in fact--those are----
    Senator Franken. OK.
    Mr. Silver. They're based on the specifics of the 
particular transaction. The riskier they are, not surprisingly, 
the higher credit subsidy. What I was referring to was whether 
or not credit subsidy funds were actually available to support, 
to pay for that credit subsidy, irrespective of what it was.
    Senator Franken. I have run out of time. Can I ask? No?
    The Chairman. Sure, go right ahead. But Senator Portman was 
very meticulous about not taking additional time.
    Senator Franken. He was. He was. You know what? I'm going 
to submit to----
    The Chairman. Why don't you go ahead with your question. 
Then we'll call on Senator Portman to finish his line of 
questioning, and then anybody else.
    Senator Franken. Mr. Reicher, in your testimony you 
outlined 6 other policy areas. Now I'm looking at this and it 
might have a long answer, so why don't I submit it for the 
record in writing.
    The Chairman. That's fine. If that's your preference, we'll 
be glad to do that.
    Senator Franken. It isn't really.
    The Chairman. Then, go ahead and ask the question.
    [Laughter.]
    The Chairman. We don't want any resentful members of this 
committee.
    Senator Franken. I know, and that's a problem of mine.
    OK. Mr. Reicher, in your testimony you outline 6 other 
policy areas that are important for clean energy 
commercialization. We can't think of a single energy policy in 
a vacuum. Among them are a national clean energy standard, 
investments in R and D, protecting EPA authority to regulate 
greenhouse gases, and extending Federal tax incentives for 
clean energy technologies.
    Which of these are most critical to have in addition to 
CEDA to make this green bank most effective, and how effective 
would CEDA be if none of these other policies were to be 
enacted? Is that a really long question?
    Mr. Reicher. No. We need to look at this as an entire 
spectrum, research, development, demonstration, and deployment, 
if we're really going to compete internationally. So the care 
and feeding of R and D at the Federal level is very important. 
We need to do what many other countries are doing, which is to 
put serious money into energy R and D.
    I do think in some fashion at some point, sooner rather 
than later, we've got to put a price on carbon emissions. There 
is no doubt about that, Senator Franken. I don't think that's 
likely to happen in this session, but we need to get to that.
    I do think--and I will stress this--to the extent this 
committee and the Senate moves down the road toward a clean 
energy standard, it would be far, far more effective if it was 
complemented by a financing mechanism like we're talking about 
today. If you want to make that an affordable clean energy 
standard, we really need to drive these innovative technologies 
into greater use, drive costs down.
    I think the politics of that will be better. People will 
see this as cheaper to comply with a clean energy standard. 
That's why I am, to be honest, frustrated with the Obama 
administration not stepping up in support of CEDA as a 
complement to the clean energy standard which it is strongly 
supporting and advocating.
    Mr. Silver. Let me just add one thing to that, Senator, if 
I may. There is a tendency, I think, to view investments in one 
or the other as both binary and linear, whereas I think of them 
as a virtuous circle. An investment in innovation leads to 
commercialization, but commercialization in turn leads to 
future innovation. One without the other is incomplete.
    Senator Franken. Thank you.
    Thank you for your indulgence.
    The Chairman. Sure. Thank you.
    Senator Portman indicated he does not have a need to go 
ahead with additional questions. Let me call on Senator Coons 
for his questions.
    Senator Coons. Thank you, chairman, and thank you for 
holding this hearing today. It's a fascinating topic and I 
agree well deserving of our attention.
    Mr. Silver, I just wanted to ask, if I could, first with 
you. Given your experience and tenure as the head of the Loan 
Guarantee Office, you witnessed some of the significant 
challenges in moving projects along, and you've mentioned a few 
lessons learned from the loan guarantee program in your 
testimony, if you were designing this program again from the 
ground up, which I know we're not, but if you were, what would 
it need to accomplish, and can you give us some more examples 
of the lessons learned? If it was established, did CEDA respond 
to them, and what suggestions do you have for how we might 
apply those lessons learned in moving forward with CEDA?
    Mr. Silver. That's not a short answer.
    Senator Coons. In 3 minutes or less.
    [Laughter.]
    Mr. Silver. I think the loan guarantee efforts have been 
substantial and quite successful under the circumstances under 
which we work. Because I don't have the luxury of starting from 
scratch, we work with what we have.
    I think, as I outlined a little bit in my testimony and in 
other conversations, I think there are 3 or 4 basic elements to 
a successful loan guarantee program. The first, of course, is 
the ability to attract and retain highly competent, highly 
experienced professionals with deep energy-specific project 
finance experience. Again, our work is only project finance. 
Obviously, to the extent we had other tools available to us we 
would have other expertise as well. But clearly a deep 
expertise is necessary in several different areas--origination, 
which is really the review and negotiation of the transaction; 
credit and credit analysis, which gets to the issues in the 
underlying credit instrument; obviously technology because we 
are funding innovative technologies. We certainly have 
benefited from our relationship with the DOE lab system and 
others, and more.
    We have, in the loan program we have a very strong legal 
team with deep background in corporate transactional work. We 
have a NEPA team that looks at those issues as well.
    So the ability to bring on those folks and retain them gets 
to the issue of how you hire them. It gets to procurement and a 
whole set of issues, part 1.
    Part 2: I think the greatest amount of clarity we can 
provide in the solicitation process is very, very important. In 
some respects, I'd describe it as the difference between a 
broadcast and a cable vision of the world, and I think 
increasingly as we have experienced, gone through this process, 
more narrow and targeted approaches are I think highly 
desirable because the amount of work is so significant on each 
project.
    Which leads me to my third observation, which is that there 
is an important distinction between small projects and large 
projects, a corollary to that, between well-funded and less 
well-funded projects, between projects with existing 
technologies in a field for which there is data and those which 
are simply emerging, and each of those buckets needs to be 
handled somewhat differently.
    So those are 3 of the most basic ways I think one would 
think about structuring.
    Senator Coons. Thank you. One of my concerns, for anyone on 
the panel who wants to answer, one of my real concerns is the 
sort of mishmash of incentives and signals that we're sending 
to a rapidly growing marketplace. So I have supported extension 
of the R and D tax credits, the 48 [c] manufacturing credits, 
the 1603 Treasury grants program. I have wondered whether 
offering another signal, longer-term power purchase agreements, 
might be another constructive way.
    How important is it, in your view, for us to have longer 
term rather than routinely and briefly extended tax credit or 
Treasury grant or other market signals, and how will CEDA fit 
into that as a potential solution? Any member of the panel who 
wishes to address it.
    Ms. Yanosek. I can take that. I think that it's critical 
that we have longer term policies. As an investor, I'm very 
challenged by the fact that I can't see into the future about 2 
years from now whether or not Congress is going to extend 
something. That impacts investment dramatically.
    We just saw the Q1 figures come out for global investment 
and they're down 30 percent from fourth quarter of last year. 
That's mostly due to government subsidies cutting back. It's 
also due to the fact that, with the 1603 grant program, folks 
were rushing in to get that grant because they didn't know if 
there was going to be an extension or not.
    I find this boom-bust cycle to be unsustainable. As a 
taxpayer, it bothers me. As an investor, I don't want to be a 
part of investments that have that political and regulatory 
risk associated, or policy risk associated with it.
    My view is actually to some of the clean energy community 
somewhat provocative. My view is that if we're not focusing on 
the breakthrough technologies I think we should just go home, 
frankly. I believe that something like 30 to 50 percent of 
returns that are going to wind and solar projects are made up 
of government subsidies, and in my view CEDA must focus on the 
breakthrough technologies.
    I do believe that a portfolio approach is important because 
you can leverage more outside dollars. I believe that CBO came 
up with a number that if you include nuclear projects that fund 
their own credit subsidy costs you can add another additional 
$100 billion to the leverage that you would get out of CEDA.
    So I do think that a portfolio approach is important, but 
the end goal has to be about funding this gap where the private 
sector won't go, and that's really, really critical in my view.
    Thank you.
    Mr. Reicher. Senator, if I could just add one quick 
example. Do you have a moment? When I was at Google before 
moving over to Stanford, we made an early stage investment 
along with Marubeni and Good Energies in a project to build a 
high voltage DC transmission line from the New York-New Jersey 
border down to the Carolinas under water off the Atlantic coast 
to hook up what will hopefully be large amounts of offshore 
wind.
    Senator Coons. Hopefully go just off the coast of Delaware.
    Mr. Reicher. Yes, your very State. You know the project 
well.
    That project is moving forward. Permitting is moving 
forward, discussions with the Federal Energy Regulatory 
Commission, with the State public utility commissions. But it 
is indeed an innovative project, and it is hard to know, 
looking out 1 year, 2 years, 3 years, what kind of Federal 
tools will in fact be there at that moment when the big money, 
literally measured in billions of dollars, needs to be put 
together to build that very innovative project.
    So we have a real serious problem in this country today, 
which are signals that we send that are very unreliable to the 
investment community at whatever stage, from venture all the 
way down to the big banks on Wall Street.
    Senator Coons. Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Senator Murkowski, did you have additional questions?
    Senator Murkowski. I don't have additional questions. I'm 
just pondering what Ms. Yanosek said about the importance--you 
don't call it the valley of death. You call it your 
commercialization gap, I guess. You know, our problem around 
here is once we get something started we can't pull it back. We 
can't, whether it's an investment--well, we have the investment 
credits and they're good for a couple years. But once we seem 
to get something in place, then you develop that reliance, and 
how we then wean those who have taken advantage of these 
opportunities, how we get them off it then, is another part of 
our problem that needs to be addressed here.
    So hopefully something like a CEDA would allow us to just 
focus on these new developing technologies, give them that 
kick-start that they need, and then they're on their own, 
theoretically.
    Ms. Yanosek. I definitely agree with you wholeheartedly. I 
think that the difference between this proposal and some of the 
others that were out there, like the green bank proposal last 
year, really was focusing on the amount of capital that could 
be leveraged off the sidelines from the private sector. But at 
the end of the day, if you're just addressing a short-term 
financing challenge, which was the argument for investing in 
these conventional energy technologies, that credit gap has 
moved on. We've moved on past that short-term financing need, 
and this is a persistent financing need that the government 
needs to step in and play a role in.
    Thank you.
    Mr. Silver. Senator, I'd like to put in a word for what I 
would call innovative but nonetheless commercial projects, 
because I think the issue of scale is critically important. In 
the loan programs to date, we have provided financing support 
for the world's largest wind farm, the world's 2 largest solar 
thermal plants, the first nuclear power plant to be built in 
quite a long time. We've really changed the face of 
concentrated solar power by doubling it.
    Projects at scale are almost definitionally commercially 
based, but there are innovative features to each. As I said 
earlier, I believe the significance of driving down unit costs 
and building out supply chains should not be underestimated in 
terms of its ongoing importance.
    Mr. Guith. If I may, I think your point is well taken. If 
you look at--I think it was mentioned already. If you look at 
what has happened in Germany in the last year, when they had 
to, because of austerity conditions, trim their feed-in tariff, 
the solar industry has been decimated globally, because they 
had become so dependent upon that handout. Frankly, investors 
will make money anywhere they can, whether it's off of a 
central government in Europe or whether it's off a trading 
market.
    It's clear in that instance that not only has it become 
overly dependent, but that it stifled innovation, from the 
standpoint that manufacturers will only do what they need to do 
in order to qualify for the feed-in tariff. There's no 
incentive to move beyond that.
    Where CEDA fits in--and a plug for my written testimony. I 
put a graph in here that I stole from DOE, that we created when 
I was there, that shows the deployment process. CEDA fits in 
that very unique gap that is not here right now. All the other 
tools we're talking about are much further down the line. I 
think they need to be discussed. To your original point and I 
think your ultimate point about offsets, that should be 
discussed and, frankly, has to be discussed as part of this 
overall concept.
    But it's vitally important to realize that what the CEDA 
that this committee reported is talking about is solely getting 
those nascent technologies, the first, second, third, whatever 
it might be, fifth, basically following the loan guarantee 
concept and helping those get to that next stage where private 
investment will come in. It's not, rightfully so--and I commend 
the committee for this--it's not trying to get the 50th and 
500th of a kind technology out there. Frankly, even from a 
scaling perspective, I think there are other tools for that, 
but CEDA is probably not the best one for it.
    Mr. Reicher. I would only add, Senator Murkowski, that you 
make a logical argument, but I would caution you on 2 aspects. 
One, we do have to look from a competitiveness standpoint at 
what other countries are doing in this clean energy race. Many 
of them are in fact providing an array of support beyond this 
innovation stage.
    The innovation stage is absolutely critical. It is where 
everything else flows from, and CEDA is a great answer to that. 
But we are in fact in a very heated race and other countries 
are providing a lot of support downstream of that, No. 1.
    No. 2, if we were to pull back with these downstream sort 
of incentives post-CEDA in a sense, I think we'd need to be 
fair about how we did it across the entire range of energy 
technologies, including conventional ones. To pull back from 
renewables, for example, and leave other incentives in place 
for more traditional supplies I think would further torque this 
market in an unfortunate way.
    Senator Murkowski. Thank you all.
    The Chairman. Senator Coons, did you have additional 
questions?
    Senator Coons. If I could, Mr. Chairman, just one last 
question.
    You raised to me a fascinating point about competitiveness 
and the tools that our global competitors are using. How would 
CEDA compare? Are there comparable structures? I mean, I'm 
relatively new to the whole concept of how our competitors are 
financing their investments in either emerging or breakthrough 
technologies in this space. How would CEDA compare? In your 
view, since I think there's broad agreement on the desirability 
of the challenges it's funding, how important is this to making 
America competitive in the next decade?
    Anyone who seeks to leap in?
    Ms. Yanosek. This is an area that I have spent a long time 
trying to find the answer to. I think it's a big enigma what's 
going on in China. But I would say that, unlike the process by 
which we go through here to assign credit subsidies to certain 
investments and the long process we go through with the DOE and 
OMB, I think that essentially China doesn't have to manage the 
democracy that we have in this country. So therefore the 
investments are going by direct loans from the banks and the 
banking community in China. Free real estate and buildings for 
a lot of these facilities.
    There is obviously a much more nuanced relationship between 
government and business, and therefore China is able to put 
capital, low-cost capital that's coming from the government in 
many forms, into these investments. They range from the 
breakthrough technologies to the wind farms.
    Now, China also has other problems, so certainly we saw $50 
billion worth of investment going into China last year. If you 
go there you'll see that about 50 percent of the wind turbines 
are not connected to the grid. So there has been this huge 
movement of capital into the country for jobs, job creation, 
for developing of the manufacturing businesses, but I also 
think that we're not going to necessarily see the sustainable 
growth there either.
    So I do think that our approach here to think very 
carefully about the right mechanisms is critical. But in terms 
of specific other programs that we can look at like CEDA, there 
are other green banks that are being put together or thought 
about in Europe. In my view, I think CEDA is a much better 
mechanism because it is focused on breakthrough technologies 
and solving a real problem. I don't necessarily see that 
happening with the U.K. green bank, for example.
    Mr. Reicher. The only thing I would add to that answer is 
that we do have a number of companies struggling in this 
country to build project No. 1 as a result of this lack of 
CEDA. As much as the loan guarantee program is helping, it 
can't fill the entire bill and it doesn't have all the tools. 
China is the No. 1 option for many of them. There is in fact, 
as Kassia said, an array of low-cost financing. There is a 
willingness to take on some risk in getting this first plant 
built.
    So we have to be very mindful that that's a very likely 
place where plant No. 1 of a particular technology gets scaled 
up and we lose a lot of benefits as a result.
    Senator Coons. I'm very concerned about that loss of early 
market leadership and intellectual property that seems to be 
going on whole-scale across whole families of technologies.
    Mr. Reicher. Including, I would say, in offshore wind. Lots 
of development there and we still haven't seen project No. 1 
built.
    Ms. Yanosek. Also, one more thing on China actually, just 
very quickly, which is that what we're also seeing is that 
utilities here in the United States are desperate for seeing 
technology scaleable in their own country. They're having a lot 
of trouble doing that here with the loan guarantee program and 
otherwise, so they're actually partnering with firms in China, 
particularly around coal gasification. If you talk to the CEOs 
of these utilities, they will tell you: We're looking to bring 
back that technology into the United States.
    So it's something we need to be very conscious of moving 
forward.
    Senator Coons. Thank you.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you all very much. I think it's been a 
useful hearing and we appreciate your excellent testimony.
    [Whereupon, at 11:36 a.m., the hearing was adjourned.]

    [The following statements were received for the record.]

                    U.S. Department of Agriculture,
                                   Office of the Secretary,
                                      Washington, DC, May 24, 2011.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 304 
        Dirksen Senate Office Building, Washington, DC.
    Dear Mr. Chairman:
    I take this opportunity to inform you of the U.S. Department of 
Agriculture's (USDA) contributions to renewable energy as you continue 
your discussions on the proposal for a Clean Energy Deployment 
Administration as contained in Title I, Subtitle A of the American 
Clean Energy Leadership Act of 2009 as offered by S. 1462 of the 111th 
Congress.
    USDA's support for renewable energy is an important part of a much 
broader commitment to a cleaner and greener future, an energy policy 
that reduces our dependence on imported oil, and a strategy that 
promotes jobs and economic growth in the United States. USDA's 
commitment has included investment in energy efficiency, clean energy 
production through biofuels, biomass, wind, solar, geothermal, and 
hydroelectric power, as well as basic scientific research into second 
and third generation biofuels.
    USDA has many programs to assist fanners, forest owners, rural 
businesses, rural residents, and the Nation respond to energy-related 
issues and opportunities. These programs range from basic scientific 
research to the development and commercialization of new technologies. 
Specifically, we have focused on outreach and education, technical 
assistance programs, financial support for infrastructure, and the 
adoption of energy-saving products by USDA itself.
    For example, USDA supports the modernization of the rural electric 
grid and the deployment of smart grid technologies in order to 
modernize rural electricity and facilitate the use of clean energy into 
the grid. From more efficient farming techniques, wind farms, and 
ethanol plants to biochemical and genomics research, USDA is deeply 
involved in and committed to the Nation's quest for clean energy and 
energy security. In fiscal year (FY) 2010 alone, USDA invested over $1 
billion in clean energy. USDA has a number of clean energy investments, 
activities, and programs that are listed on the enclosure.
    The Administration recently put forth a Blueprint for a Secure 
Energy Future, focusing on the development of domestic clean energy 
supplies to help harness America's clean energy potential. Recognizing 
the promise of commercial development of cellulosic and advanced 
biofuels, their potential contribution towards reducing our oil 
dependence, and the current challenges to bringing those technologies 
to scale, the President has set a goal of breaking ground on at least 
four commercial-scale cellulosic or advanced biorefineries over the 
next 2 years. In addition, the President has challenged USDA, the 
Department of Energy, and the Department of the Navy to investigate how 
to speed the development of drop-in biofuel substitutes for diesel and 
jet fuel.
    President Obama has set an ambitious goal of reducing oil imports 
by one-third from 2008 levels by 2025. Increasing both biofuel 
production and the use of biofuels are important parts of achieving 
that goal. The Administration is working on an integrated research 
strategy to overcome barriers to increased use of today's biofuels and 
to accelerate the development and commercial deployment of next-
generation biofuels. This strategy includes targeted investment in 
biofuels distribution infrastructure, support for research, development 
and early-stage deployment of promising next-generation biofuels 
technologies, and implementation of the Renewable Fuels Standard and 
other key components of the regulatory framework.
    USDA's commitment to renewable energy is longstanding. While there 
are urban and suburban sources of renewable energy, renewable energy is 
largely rural energy. Biofuels and bio-based products rely primarily on 
farm and forest feedstocks. Due to siting challenges, large-scale wind 
and solar farms, as well as geothermal plants, may be located in rural 
areas. In addition to its environmental, energy security, and national 
security implications, renewable energy is an important source of jobs, 
economic growth, and tax revenue in rural communities across the 
country, while biofuels and biomass offer exciting new opportunities 
specifically for American agricultural producers. Our Nation's future 
depends on out-innovating, out-investing, out-educating, and out-
building our competitors in an ever-more integrated world economy. 
Renewable energy is clearly one of the sectors in which we must win the 
future. Furthermore, the President has set a clean energy goal of 80 
percent of the Nation's electricity coming from clean energy resources 
by 2035.
    USDA has entered into Memoranda of Understanding related to 
renewable energy with the Department of the Navy and with the Federal 
Aviation Administration (FAA), and we work closely with many partners 
in academia and the private sector as well. The aviation industry is a 
prime example of a sector that is pressing forward to transition to 
renewable jet biofuels.
    The accelerated deployment of renewable energy is a high priority 
for the Obama Administration, as it has been for Congress as well, on a 
bipartisan basis, for many years. We are partners in this effort, and 
welcome this opportunity to inform the Committee of USDA's role in 
helping to build a cleaner, more secure, more sustainable, and 
domestically-produced energy sector for future generations. A similar 
letter is being sent to Senator Murkowski.
            Sincerely,
                                         Thomas J. Vilsack,
                                                         Secretary.
     enclosure.--clean energy investments, activities, and programs
Research in Renewable Energy
  <bullet> USDA's Office of Energy Policy and New Uses recently 
        released a seminal report titled, Renewable Power Opportunities 
        for Rural Communities, on the potential for renewable energy in 
        rural America.
  <bullet> SDA completed a Biofuels Roadmap identifying barriers to and 
        proposed plans of action to meet Congressionally-mandated 
        Renewable Fuel Standard (RFS2) goals for national biofuels 
        production and use, with detailed information by region. 
        (http://www.usda.gov/documents/
        USDA_Biofuels_Report_6232010.pdf)
  <bullet> USDA has established five regional research centers (led by 
        the Agricultural Research Service and the Forest Service) 
        working on the scientific research necessary to ensure reliable 
        and profitable biofuels can be produced from a diverse range of 
        feedstocks across the nation. The latest genetic methods and 
        natural resource management tools are being used to find the 
        most sustainable ways to produce the feedstocks needed for the 
        next generation of biofuels.
  <bullet> In 2010, the National Institute of Food and Agriculture 
        (NIFA) Agriculture and Food Research Initiative Sustainable 
        Bioertergy Challenge awarded approximately 50 grants totaling 
        $40 million. The grants fund research, education, and outreach 
        supporting the development of regional systems for the 
        sustainable production of biofuels, biopower, and biobased 
        products. These grants are implemented through regional 
        Coordinated Agricultural Projects (CAPs) that focus on five 
        dedicated energy crops aimed at producing advanced non-ethanol 
        fuels and biobased products. The CAPs also provide innovative 
        education programs for bioenergy workforce development; and 
        sustainable bioenergy research projects targeting biofuel 
        conversion co-products, carbon sequestration, and feedstock 
        crop protection.
  <bullet> From 2008 to 2010, approximately 30 grants totaling about 
        $30 million were jointly awarded by NIFA and the Department of 
        Energy (DOE) to accelerate fundamental genomic research of 
        cellulosic bioenergy feedstock crops, such as fast-growing 
        trees, shrubs, and grasses.
  <bullet> NIFA has also funded research through the joint USDAJDOE 
        Biomass Research and Development Initiative. In 2009, USDA 
        funded nine projects with approximately $18 million, and, using 
        2010 dollars, is about to award approximately $35 million to 7 
        awardees, along with DOE's awarding a $6 million grant. These 
        funds focus on near-term research and development of 
        technologies and methods to produce biofuels, bioenergy, and 
        high-value biobased products. Projects must address the 
        environmental, economic, and social impacts of the technologies 
        as they are developed. Advanced biofuels produced through 2010 
        funding are expected to reduce greenhouse gas emissions by at 
        least 50 percent as compared to fossil fuels. Earlier this 
        month, USDA and DOE announced grants of $42 million that funded 
        eight research and development projects to support the 
        production of biofuels, bioenergy, and high-value biobased 
        products from a variety of biomass sources.
  <bullet> The National Agricultural Statistics Service (NASS) collects 
        valuable information on agricultural practices and production, 
        which are further analyzed by the Economic Research Service 
        (ERS) to assess the economic implications of biofuel production 
        on commodity prices, use and conservation of land, 
        environmental outcomes, greenhouse gas emissions, and markets 
        for biofuel by-products.
  <bullet> In February 2011, NASS also released the ``On-Farm Renewable 
        Energy Production Report'' which provides on-farm bioenergy 
        production data for wind, solar, and methane digesters
Investments in Renewable Energy Production
  <bullet> We are investing in advanced biofuels and biomass energy 
        projects in each of the five regions of the country identified 
        by our Biofuels Roadmap, funding construction and updates to 
        production facilities as well as feasibility studies in 27 
        States and the Western Pacific.
  <bullet> The Bioenergy Program for Advanced Biofuels made payments 
        worth nearly $30 million to more than 120 recipients in 34 
        States.
  We are supporting potential biorefineries for advanced biofuels in 
        Michigan, Florida, Georgia, Mississippi, and New Mexico, an 
        investment totaling over $302 million through loan guarantees.
  <bullet> In 2 years, the Forest Service' Woody Biomass Utilization 
        Grant Program invested $11.5 million and $19 million in 
        leveraged dollars to fund 41 projects, saving or creating more 
        than a hundred jobs and using hundreds of thousands of green 
        tons of woody biomass from forest restoration activities for 
        renewable energy generation and use at bioenergy facilities.
  <bullet> In April 2011, USDA announced a clarification of one of our 
        most popular energy programs, the Rural Energy for America 
        Program (REAP), so that it was clear to our stakeholders that 
        flex fuel pumps for biofuel dispensing were eligible for 
        funding.
  <bullet> We have made investments in more than 270 wind energy 
        projects over the last 2 years under REAP.
  <bullet> USDA has invested $152 million in smart grid over the last 
        year and is preparing to do more in the coming year.
  <bullet> Since 2003, through USDA Rural Development's energy, 
        business, and utility programs, have invested in clean energy 
        and have created or saved 15,064 jobs, reduced greenhouse gases 
        by over 19 million metric tons of CO<INF>2</INF>, and 
        generated/saved over 15 billion kWh in energy, according to 
        USDA's Rural Business-Cooperative Service' ``FY 10 Energy 
        Report.''
Support for Growers and Producers of Renewable Energy Feedstocks
  <bullet> Under the Biomass Crop Assistance Program (BCAP), USDA 
        provides up to 75 percent of the cost to establish new energy 
        crops, annual payments as the crops mature, and matching 
        payments to transport the crops to bioenergy facilities.
  <bullet> BCAP will reduce the financial risk for producers who 
        support emerging biofuels markets by growing and producing 
        renewable energy crops such as switchgrass, miscanthus, fast-
        growing woody poplar, jatropha, algae, energy cane, and 
        pongamia.
  <bullet> Biomass must be collected and harvested only with an 
        approved conservation, forest stewardship, or similar plan to 
        protect soil and water quality and preserve land productivity 
        into the future. Further, biomass harvest cannot occur on 
        native sod, and all crop collection, harvesting, and 
        transportation must be in accordance with invasive plant 
        species protections.
  <bullet> BCAP will also kick-start liquid cellulosic biofuels to meet 
        Renewable Fuel Standard targets by providing bonus incentives 
        for the cultivation of cellulosic biofuels that have 60-percent 
        lower lifecycle greenhouse gas emissions.
Support for Energy Efficiency and On-Farm Energy Generation
  <bullet> From 2009-2010, under REAP, USDA helped nearly 4,000 rural 
        small businesses, farmers, and ranchers save energy and improve 
        their bottom line by installing renewable energy systems and 
        energy efficiency solutions that will save a projected 4.3 
        billion in kWh--enough energy to power 390,000 American homes 
        for a year.
  <bullet> Working with the Innovation Center for U.S. Dairy, USDA is 
        implementing key strategies from an MOU signed in December 2009 
        to cut greenhouse emissions from U.S. dairy operations by 25 
        percent by 2020 through increased use of anaerobic digesters. 
        See below:

     USDA Assistance Awarded to Anaerobic Digester Systems in FY2010
------------------------------------------------------------------------
                                          Awards to     Awards to  Dairy
               Program                    Digesters         Digesters
------------------------------------------------------------------------
9007 Rural Energy for America         18                10
 Program (REAP)
------------------------------------------------------------------------
9007 REAP Feasibility Study Grants    22                14
------------------------------------------------------------------------
Value-Added Producer Grants (VAPG)    4                 2
------------------------------------------------------------------------
Rural Business Enterprise Grants      1                 1
 (RBEG)
------------------------------------------------------------------------
Environmental Quality Incentives      6                 5
 Program (EQIP)
------------------------------------------------------------------------
    Total                             51                32
------------------------------------------------------------------------

                                 ______
                                 
Statement of Ray Rothrock, General Partner of Venrock and Board Member 
                              of the NVCA
    My name is Ray Rothrock. I am a 23 year General Partner of 
Venrock--one of the oldest venture capital firms in the United States. 
I am also a member of the Board of Directors of the National Venture 
Capital Association (NVCA), on whose behalf I am pleased to submit this 
testimony today. Attached to this testimony is a related letter sent to 
the President of the United States on June 29, 2010 by many of my 
colleagues at the NVCA and other significant business and financial 
leaders.*
---------------------------------------------------------------------------
    * Signatures have been retained in committee files.
---------------------------------------------------------------------------
    During the last decade, the venture capital industry has committed 
a tremendous amount of time and resources to identifying the most 
promising innovations in the renewable energy sector and bringing those 
technologies to market. In just the last five years, U.S. venture 
capitalists have invested more than $14 billion in an estimated 1,000 
American companies in the clean technology industry. I can testify 
first hand to the promise of this emerging economy in terms of 
innovation, revenue growth and job creation.
    My colleagues and I on the board of the NVCA can certainly 
understand how reasonable people can disagree on elements of U.S. 
energy policy. The importance of U.S. clean energy technology 
leadership in a global marketplace, however, should not be one of them.
    America must lead the world in the development of low-carbon and 
renewable energy technologies if it intends to maintain its global 
economic primacy. Trillions of dollars and millions of U.S. jobs depend 
on it--not to mention our national security and the health of our 
planet.
    Sadly, political paralysis on Capitol Hill is risking U.S. 
leadership in the race to shape the world's energy future. The data are 
coming in to illustrate this slippage in real time. For example, 
Bloomberg financial data shows that as early as 2009, the US slipped 
behind China for the first time ever in terms of overall clean energy 
finance and investment. And the accounting firm Ernst & Young reported 
in September of 2010 that China beat the US for the first time in the 
firm's annual rankings of 27 countries in terms of their attractiveness 
for renewable energy investment. The report cited in particular US 
failure to enact supportive national clean energy policy. It is not too 
late to change this course of events.
    That's why Congress must act now to pass an energy bill that 
directly addresses the primary challenge in successfully developing and 
deploying innovative energy technologies: financing promising ideas 
from inception all the way to the marketplace.
    This can prove exceptionally difficult for clean-energy technology 
innovations because they can require hundreds of millions or even 
billions of dollars to scale up to large-scale commercial facilities 
from small pilot projects which are often funded by venture capital 
investment or government grants. During this process, months can turn 
into years and years into decades. The time frame alone can kill even 
the most fragile and promising startup company. A single technology can 
consume billions of dollars before even one commercial-scale plant goes 
online. The risks to private investors to undergo this financing 
challenge so far is too great.
    It's no wonder that so many promising energy innovations die on the 
vine, so to speak, during this scale-up process. This period or phase 
in development of these promising companies has been dubbed ``the 
valley of death.'' The investments require too much capital for venture 
capital funds, and the scale-up process involves too much risk for 
traditional players like commercial banks and private equity firms. So 
the floor of the valley of death is littered with energy technology 
carcasses ranging from renewable energy to cleaner fossil fuel 
technologies to nuclear.
    Fortunately, the Senate Energy Committee in 2009--on a bipartisan 
basis--devised a way for the federal government to help bridge this 
critical financing gap, bridging the ``valley of death''--the Clean 
Energy Deployment Administration (CEDA). CEDA, while organized within 
the Department of Energy, would enjoy a healthy degree of independence. 
Most importantly, it would create an attractive investment environment 
for the full-scale deployment of new clean energy technologies. At this 
time, such a vehicle is essential to regain U.S. leadership in energy 
deployment.
    CEDA would do so by managing an initial $10 billion fund to provide 
loans, loan guarantees, and other credit enhancements to private 
investors, as well as provide secondary-market support to develop 
products such as clean energy-backed bonds that would allow less 
expensive lending in the private sector. In terms of cost, CEDA has 
been designed to pay for itself through a blend of returns on its loans 
and investments, royalties from patents and technology transfers, and 
fees for other services it will offer.
    To some critics, CEDA may look like just another expansion of 
government, or an attempt by bureaucrats to pick winners and losers. 
It's not. In fact, CEDA aims to get billions of private-sector dollars 
flowing toward the most promising clean energy companies as identified 
by private investors. In effect, CEDA would help U.S. companies with 
proven technologies to get their first few large-scale plants up and 
running and then get out of the way--letting the private sector finance 
the rest of those companies' growth. CEDA would follow the private 
sector, not lead it, in picking promising management teams and 
technology.
    Perhaps most importantly, the billions in private investment that 
CEDA aims to unleash would help spur the creation of millions of jobs 
immediately. The job creation generated from venture-backed companies 
is well documented. According to a 2011 reporter by HIS Global Insight, 
companies that received venture capital in their formative years today 
account for 12 million jobs or 11 percent of U.S. private sector 
employment. Armed with the confidence that CEDA will be there to help 
bridge the ``valley of death'' for their portfolio companies, enactment 
of CEDA legislation would by itself prompt venture capital and private 
equity firms to start investing right now in breakthrough clean-energy 
technology companies. The establishment of CEDA, the provision of 
CEDA's initial funding and then self-sustaining financial engine, and 
the implementation of its professional and independent management 
structure would provide exactly the kind of stable, long-term, 
dependable policy mechanism that investors and businesses need to grow 
in the United States.
    The alternative course of action--failure to enact CEDA--could 
cripple the competitive global economic posture of the United States in 
energy. Other countries, from China to Germany to Japan, have already 
put an array of measures in place to help their nascent clean 
technology industries grow into global leaders. A September 9, 2010 New 
York Times article highlighted the myriad ways that China has done 
this, including providing debt financing at critical junctures in the 
growth cycle of these companies. The United States has a strong 
research and development system and a highly entrepreneurial culture, 
but unless new American clean energy companies can find the capital 
they need to bridge the ``valley of death'' here in the U.S., they will 
have to go where the money is which is abroad.
    I cannot emphasize this point enough. Given the willingness and 
ability of other countries to provide financing to new clean-technology 
companies, U.S. companies (and their investors and investment bankers) 
must do a very sober assessment of the pros and cons of locating their 
next facility in those foreign countries. In fact, it is becomingly 
increasingly common for potential investors and investment bankers to 
ask companies not about WHETHER they might consider locating operations 
in China, but rather about what their current plan IS to locate 
operations in China. Recent anecdotal evidence bears this out. Within 
just two hours of receiving an email sent to NVCA clean energy firms 
inquiring whether they knew of U.S. innovative companies that made 
moved facilities to China for financing for their commercial 
facilities, those members named and told the stories of 15 companies 
that had done precisely that.
    It is not realistic to suppose that the United States will 
appropriate government dollars to deploy clean energy facilities and 
plants in amounts sufficient to match the expenditures of a country 
like China. Bloomberg News reported on July 20, 2010 that China is 
planning to invest $738 billion over the next 10 years. The hope for 
the U.S. to compete with these vast expenditures is to spur comparable 
private-sector investment in the deployment in clean technology 
facilities in the U.S. And CEDA is the public policy mechanism to 
accomplish that objective and to realize that hope.
    In the alternative, if the U.S. fails to enact CEDA and regain the 
lead in clean energy technology deployment, we will likely see U.S. 
innovators take their promising technologies abroad, at the expense of 
developing and commercializing them here at home to say nothing of the 
loss of domestic job opportunity. If that happens, we will have made a 
mistake of historic proportions at a critical point in America's 
economic history. We will--by inaction--have consciously ceded to other 
nations, economic growth, millions of high-paying new jobs, and global 
leadership that goes hand-in-hand with one of the most important 
industrial sectors of the 21st century.
    Thank you for accepting this testimony in conjunction with the 
hearing on May 3, 2011 of the United States Senate Energy and Resources 
Committee.
                               attachment
                                                     June 29, 2010.
The President,
The White House, Washington, DC.
    Dear Mr. President: When we first wrote you on January 21 of this 
year, we were 13 entrepreneurs, investors, and industry stakeholders 
active in the transition to a low-carbon energy economy, urging you to 
work with Congressional leaders to craft a jobs package that includes 
the immediate creation of a Clean Energy Deployment Administration 
(CEDA). We have now been joined by many others in this letter to 
reiterate our strong belief that CEDA's swift enactment will both spur 
the creation of jobs in 2010, and position the U.S. as the global 
leader in the development and deployment of clean energy technologies 
for years to come.
    The need to enact CEDA is now all the more urgent as part of the 
comprehensive clean energy bill you have called for. The tragic oil 
spill in the Gulf of Mexico highlights the critical need for investment 
in the deployment of breakthrough clean energy technology--the core 
focus of CEDA--to better position the U.S. to reduce its oil 
dependence.
    In our first letter, we explained that the Senate Energy and 
Natural Resources Committee had adopted bipartisan legislation to 
create CEDA, and how the Senate's version of CEDA would create a 
financing entity with the skill, flexibility, and independence to 
effectively provide the necessary credit support for the development 
and deployment of clean energy technologies throughout the economy. 
Most importantly, we highlighted the focus of the Senate's CEDA bill on 
innovative technologies and how it will help America's emerging clean 
energy technology companies cross the so-called ``valley of death'' 
between the invention of a technology and its full commercial 
deployment. We argued that this focus would substantially accelerate 
and increase the private sector investment necessary to position the 
U.S. as the global clean energy leader.
    It has become apparent that to create high-paying jobs now, we need 
to enact the Senate's version of CEDA now. Venture capital funds and 
other private investors are ready to invest in clean energy 
entrepreneurial companies today if they know that the government is 
poised to help finance the scale-up of these companies' technologies 
when they are ready to build their first commercial facilities 
tomorrow. These investments--and the jobs that they will create--need 
not wait until CEDA is actually up and operating. The swift enactment 
of CEDA will significantly increase confidence necessary to spur these 
investments right now. By expeditiously enacting the Senate's CEDA into 
law we will not only accelerate the flow of investment into 
technologies that will reduce our dependence on foreign oil, but we 
will also contribute to significant job creation here in the U.S.
    In conclusion, this now larger group of entrepreneurs, investors, 
and industry stakeholders once again extends an offer to discuss this 
matter in more detail with Administration officials. Thank you again 
for your consideration and your leadership in the emerging clean energy 
economy.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

     Responses of Kassia Yanosek to Questions From Senator Bingaman
    Question 1. Critics would say that other technologies have 
traversed the Commercialization Gap you mentioned in your testimony 
without government intervention. From your perspective as a market 
participant, what is different about energy that requires government 
intervention? Is it just the competitive pressure of other governments 
that are providing support, or is there something fundamentally 
different about energy?
    Answer. Significant capital is often needed to move technologies 
from pilot testing to deployment--capital that does not fit the risk/
return profiles of venture, private equity, or debt financing. As such, 
these technologies and projects are stuck in the ``Commercialization 
Gap''. Traversing this gap is critical for accelerating new 
technologies from first-commercial demonstration to widespread adoption 
and deployment by the private sector.\1\
---------------------------------------------------------------------------
    \1\ See Appendix A for a description of the risk/return profiles of 
the staages of energy technology innovation. [Note: Appendix A has been 
retained in committee files.]

  <bullet> What is unique about energy is that the private sector is 
        often unable to realize enough of the available economic 
        benefit to warrant the costs of traversing the 
        Commercialization Gap. Unlike ``capital-light'' sectors such as 
        information technology, the energy sector often requires high 
        capital expenditures for first commercial projects. 
        Furthermore, these high upfront investments coupled with 
        venture capital-like risks, warranting high internal rates of 
        return for private sector investors. Such returns can be 
        elusive in the energy sector--particularly for electric power 
        innovations--due to the limited returns electricity can provide 
        its end seller, often a regulated utility limited by the price 
---------------------------------------------------------------------------
        it can charge for innovative power.

    Utility-scale concentrated solar power generation provides a case 
        study for the role for government intervention--a role that 
        CEDA could play in helping such a technology traverse the 
        Commercialization Gap. First-commercial, utility-scale solar 
        power projects, often requiring billions in initial capital 
        investments, are plagued by a persistent financing challenge as 
        the risk/return profile of such projects are undesirable for 
        private investors. Unlike innovations in industries such as 
        consumer electronic products which can be rewarded by high 
        price points driven by consumer demand, such incentives do not 
        exist for the electric utility sector. Price points (e.g. 
        prices set by power purchase agreements) are driven by 
        conventional fossil fuel alternatives and/or are capped by 
        regulators.

    Figure 1* shows the value chain for the solar energy production--
        from the mining of the silicon to the sale of electricity to a 
        consumer--of utility scale solar power. Each link in this value 
        chain requires an enterprise to produce a product and take a 
        margin on the sale from the next link in the value chain. At 
        the end of the chain, when the utility sells the generated 
        electricity to the consumer, the utility will have to charge a 
        high enough rate that it recovers--at a minimum--the sum of the 
        margins charged across the value chain. For many new 
        technologies, this allowed rate is not high enough to cover the 
        cost of the value chain--and the margins necessary to justify 
        the risks, compared with other alternatives. (Note that a 
        combined cycle gas plant can be built for $1,000 per kilowatt 
        of installed capacity, while a solar plant requires $3,000 per 
        kilowatt). The most challenging piece of the value chain from a 
        financing perspective is that of the project developer, who 
        must arrange for billions of dollars of capital to develop and 
        construct such a facility. For a project which has not yet been 
        proven commercially at scale, government intervention is 
        necessary to either underwrite the risk or underwrite the 
        return of this asset in order to successfully bring private 
        sector equity and debt providers to invest in the project's 
        development and construction.
---------------------------------------------------------------------------
    * Figure 1 has been retained in committee files.

  <bullet> Persistent funding support for clean energy innovation by 
        other governments--and inconsistent funding support by the 
        U.S.--will ultimately result in a reduction in U.S. 
        technological innovation and competitiveness. While it is 
        difficult to parse out how other governments are funding clean 
        energy technologies in the Commercialization Gap, it is clear 
        that much of the overall clean energy investment growth has 
        shifted from Western economies to growth economies such as 
        China, as demonstrated by 2010 investment data. Last year, 
        investment in China was up 39% to $54bn, larger than any one 
        country.\2\ This investment has in part gone to growing China's 
        manufacturing capabilities as a supplier of clean energy 
        technologies, particularly in wind and solar. Starting in 2008, 
        Chinese solar module suppliers have consistently acquired 
        market share from U.S. and European manufacturers. 
        Historically, such manufacturers aimed for 30-40% gross margins 
        on modules; Chinese suppliers as of recent have been willing to 
        sell for 20-30% margins.\3\ While margin erosion brings down 
        the overall cost of installing solar (and is a good thing for 
        consumers), U.S. suppliers will continue to see their market 
        share erode without innovations or cost reductions that allow 
        them to compete with their Chinese competitors. Chinese 
        supplier market share has grown from 5-15% in 2008 to 56% as of 
        Q4 2010. Figure 2* illustrates suppliers of solar PV modules to 
        the California market from 2007-2010:
---------------------------------------------------------------------------
    \2\ Bloomberg New Energy Finance
    \3\ Bloomberg New Energy Finance 3 Power advocate, http://
marketing.poweradvocate.com/webfm--send/476
    * Figure 2 has been retained in committee files.

    Question 2. You've spent some time looking at what other countries 
have done to provide financing for clean energy projects. Can you 
compare the scale of those programs with what we're contemplating here 
with CEDA? Do we need to match their investments?
    Answer. Comparing CEDA--which would prioritize financing the scale 
up of breakthrough technologies--to other like-minded government 
programs is difficult. Much of the government-backed clean energy 
financing activity in the U.S., Europe, China and elsewhere has been 
dedicated to project financings of conventional renewable technologies 
such as wind farms and solar parks, rather than first-commercial 
projects. In 2010, the China Development Bank made $35bn available in 
credit facilities for six domestic wind and solar companies. In 
contrast, the U.S. government Federal Financing Bank provided $2bn in 
financing to the clean energy sector.\4\
---------------------------------------------------------------------------
    \4\ Bloomberg New Energy Finance.
---------------------------------------------------------------------------
    U.S.-China partnerships are an indication that U.S. firms see the 
potential for developing first-commercial technologies first in China. 
In January 2011, a number of U.S. firms announced partnerships with 
Chinese firms to pursue technology developments in areas such as coal 
gasification. General Electric and China Huadian Corporation confirmed 
a joint venture on gas turbines for China. GE also announced a deal 
with Shenhua to develop coal gasification technology in China. Alcoa 
and China Power Investment Corp. announced a project for aluminum and 
clean energy projects in China. Duke Energy and AEP respectively 
announced MOUs with Chinese energy firms for joint demonstrations of 
clean coal technologies.
    The U.S. may not need to match China's investments dollar for 
dollar. China's macroeconomic policies to maintain GDP growth have led 
to inefficient uses of investment capital, demonstrated by the fact 
that 50% of wind farms remain unconnected to the grid. However, China's 
capital and labor cost advantages will continue to pressure export 
markets and the U.S.' ability to compete, unless the U.S. shifts its 
policy priorities to providing intervention where it is needed most--
financing the scale up of more innovative technologies.
    CEDA is designed to put efficient government dollars to work in 
partnership with the private sector, for financing technologies which 
have a chance over time to become cost-competitive with conventional 
energy. The one-time $10 billion capitalization needed for this 
evergreen program provides taxpayers a ``bang for their buck'', 
particularly when compared to other government programs which have 
deployed capital for clean energy in the form of grants with no return. 
As a comparison, the Section 1603 Treasury Grant program is expected to 
cost approximately $10 billion through the end of 2011, equal to the 
one-time capitalization needed by CEDA.
    Question 3. Fundamentally, CEDA is taking on risks that private 
banks are not interested in taking. An economist might say this means 
the market is telling us the investments are not worth making. How do 
you react to this criticism? Is there some type of market failure here 
that is keeping these investments from happening?
    Answer. The economist would only be right if he or she is solely 
considering conventional clean energy technologies, and ignores the 
``breakthrough'' technologies that have yet to be commercialized. The 
market failure is the ``Commercialization Gap'' characterized by a 
persistent financing challenge that the private sector cannot address 
alone. The benefits of commercializing new clean breakthrough energy 
technologies that can compete in an open market with fossil-based fuels 
are well documented; there is limited disagreement on this vision in 
developed economies around the world. Government intervention is worthy 
of intervention in this regard. The rationale is less justifiable for 
intervening on behalf of technologies that will perpetually require 
subsidies to be competitive in an open marketplace.
    To help close the Commercialization Gap, the U.S. government can 
lower the financial risks the private sector faces in investing in the 
deployment of breakthrough technologies. CEDA's credit support products 
will do just this, improving the risk/return profile for these risky 
yet capital intensive technologies and enabling private sector capital 
to participate. Loan guarantees have already proven essential to 
promising large-scale solar projects and to firms that test new 
technologies to burn coal more cleanly. CEDA, as drafted, would 
incorporate the existing loan guarantee program and improve upon it. 
Important aspects of CEDA include the following:

  <bullet> Emphasis on breakthrough technologies. CEDA addresses the 
        Commercialization Gap funding challenge and serves to move 
        private capital off the sidelines by improving the risk/return 
        profile of commercializationstage technologies. CEDA's 
        portfolio approach will pool risk and diversify investments, 
        allowing for losses on some investments to be offset by gains 
        on others.
  <bullet> A broad array of tools to accelerate the deployment of clean 
        energy technologies. Credit support includes loans, loan 
        guarantees, insurance products, and debt instruments that allow 
        CEDA to participate as a co-lender or member of an investor 
        syndicate. CEDA may also provide indirect market support to 
        develop securitized products. These tools enhance and expand 
        the ability for the DOE to provide funding solutions for a 
        range of technologies and projects.\5\
---------------------------------------------------------------------------
    \5\ See Appendix B for a description of potential CEDA financial 
products. [Note: Appendix B has been retained in committee files.]
---------------------------------------------------------------------------
  <bullet> A separate administration within the Department of Energy, 
        similar to FERC. CEDA's separate Administrator and Board of 
        Directors would provide CEDA substantial independence within 
        DOE, much like FERC enjoys. This independence will likely help 
        to reduce lengthy review processes which have challenged DOE's 
        loan guarantee programs.
  <bullet> Funding mechanisms which permit CEDA to become self-
        sustaining. Profit participation, as defined in the CEDA 
        legislation, will allow CEDA to be compensated for risk with 
        upside in successful companies and/or projects. This is one 
        mechanism by which CEDA could self-fund over time, similar to a 
        mechanism employed by the Overseas Private Investment 
        Corporation (OPIC) Fund Program. OPIC provides loan guarantees 
        to private sector funds in return for a preferred government 
        return. Achieving self-funding status is a significant goal as 
        it would permit CEDA autonomy from the appropriations process.
                                 ______
                                 
   Responses of Christopher Guith to Questions From Senator Bingaman
    Question 1. The thrust of your testimony is that CEDA can greatly 
accelerate the development of new technologies and bring them to the 
commercial market faster. I agree that the goals of energy security, 
environmental quality, and job creation are urgent. I think you'd also 
agree that this is a growing global market. Can you speak to how urgent 
this accelerated development is to maintain international 
competitiveness as well?
    Answer. Technology development and deployment are one of the keys 
to maintaining and improving America's competitiveness in the global 
market. This is true in medicine, information technology, 
biotechnology, and defense to name a few, and it is no less so 
regarding energy technology. While there is most certainly a value in 
developing and marketing new applications or devices at home and around 
the world, the primary economic benefit energy technology development 
delivers is by providing a stable, reliable, and affordable supply of 
energy.
    The last decade has made this point abundantly clear in the 
petrochemical industry, where a self-imposed supply shortage in the 
U.S. drove natural gas prices to historic levels very quickly. Between 
2000 and 2008 prices increased 460%. The petrochemical industry is very 
dependent upon natural gas, not only as a source of processing energy 
but also as a hydro-carbon feedstock to produce everything from 
pharmaceuticals to plastics. The staggering price increases quickly 
made it unprofitable to operate in the U.S., contributing to the 
industry shedding more than 120,000 jobs, many of them relocated to 
countries with much less restrictive natural gas production laws and 
thus, more stable and affordable prices.
    However, technology development and deployment has now enabled us 
to gain access to one of the largest proven natural gas reserves in the 
world. The combination of decades-old hydraulic fracturing technology 
with the newer horizontal drilling technology made access to and 
production from formations rich with natural gas not only possible but 
profitable. Prices have receded to levels not seen in nearly a decade, 
and the petrochemical industry is cautiously optimistic that it can 
grow again in the U.S. if this trend continues.
    The ability to develop and deploy technologies that will ensure 
stable and affordable energy prices is directly tied to economic health 
and competitiveness. The creation of a tool like the Clean Energy 
Deployment Administration (CEDA) would be a positive step towards 
bringing new technologies to market and achieving this important goal.
    Question 2. Do you have any data on investments by international 
competitors in this sector, or any other measurements of market 
potential that could help us get a sense of if the scale of CEDA is 
sufficient to the task?
    Answer. We are currently measuring and gathering quantitative data 
on the energy investments of other nations. While we are not finished 
with this activity, it is clear that other countries, while investing 
heavily in traditional sources of energy, are also investing heavily in 
advanced energy technologies. It is also clear that nation's with the 
greatest economic growth are not limiting investment into any one 
technology, but rather are investing in any and every technology that 
meets the goal of supporting economic growth and bringing reliable and 
affordable energy to millions who currently lack such basic resources.
    We do not think CEDA should be seen as the only tool to promote 
energy technology deployment. Fundamental certainty of regulatory and 
fiscal policy has historically had the greatest impact on energy 
technology deployment investments. Similarly, looking at the tremendous 
siting and permitting barriers that have evolved under the National 
Environmental Policy Act since its inception 40 years ago, removing 
regulatory hurdles must be at least as high a priority as financing new 
technologies, if not greater. Policy tools like CEDA will help to draw 
capital to technologies with prohibitively high technological and 
economic risk, but if siting and permitting a project remains an 
unpredictable gamble, CEDA will not--indeed, cannot--be as effective as 
it could be.
    Responses of Christopher Guith to Questions From Senator Sanders
    Question 1. Does the U.S. Chamber of Commerce believe that CEDA 
should be a ``permanent financing platform'' for nuclear power as is 
advocated by the Nuclear Energy Institute?
    Answer. The U.S. Chamber of Commerce supports CEDA's limited scope, 
as embodied in the version reported out of the Energy & Natural 
Resources Committee in 5. 1462, the American Clean Energy Leadership 
Act, in the 111th Congress. The goal of CEDA--and the reason the U.S. 
Chamber supports its creation--is to address the structural financial 
barriers that inhibit new energy technology deployment. These barriers 
are prohibitively high technological and economic risk. As drafted, 
CEDA is not designed to scale any technology, whether it be nuclear or 
wind. But some versions of these technologies certainly fit within 
CEDA's scope (e.g. off-shore wind or advanced nuclear), but not 
indefinitely. Once a particular technology or application has reached a 
certain threshold, it should no longer qualify for CEDA consideration.
    Question 2. Does the U.S Chamber of Commerce believe that there 
should be a limit on the total amount of credit support CEDA can 
provide to ensure it does not over-extend itself and leave taxpayers on 
the hook?
    Answer. The U.S. Chamber of Commerce feels that a diversified 
portfolio of technologies is crucial to achieving its public policy 
goals and to mitigate risk to tax-payers. CEDA's compliance with the 
Federal Credit Reform Act coupled with its proposed structure and focus 
on diversification will protect tax-payers.
    Moreover, requiring recipient projects to pay operational costs 
through fees as well as any credit subsidy costs will further mitigate 
risk. Additionally, an expeditious issuance of public bonds and 
requiring CEDA to ultimately repay the initial federal capitalization 
should be considered.
    Question 3. Does the U.S Chamber of Commerce believe mature 
technologies such as conventional coal plants and nuclear plants should 
be excluded from CEDA financing since CEDA is focused expressly on 
helping breakthrough technologies scale up and make it past the 
``valley of death''?
    Answer. The U.S. Chamber supports CEDA because it does focus on new 
or breakthrough technologies. As drafted, CEDA is not designed to scale 
technologies. This is true for existing nuclear and conventional coal 
technologies, as well as traditional wind and photovoltaic technology. 
CEDA is crafted to overcome technological risk barriers, which is not 
evident in any of these technologies. However, clean coal (e.g. 
supercritical, IGCC, and CCS) and advanced nuclear (e.g. generation 3+ 
and Small Modular Reactors) clearly fit within CEDA's defined scope 
today, as would concentrated solar thermal and offshore wind. If and 
when a technology is deployed to the point where technological risk has 
been mitigated, it should no longer be eligible for CEDA consideration.
    Question 4. Does the U.S. Chamber of Commerce recognize and accept 
the scientific finding, as stated by the U.S. Global Change Research 
Program which includes the Departments of Commerce, Defense, Energy, 
Interior, State, Transportation, Health and Human Services, 
Agriculture, as well as EPA, NASA, The National Science Foundation, and 
the Smithsonian Institution, that ``global warming is unequivocal and 
primarily human-induced''?
    Answer. As noted in my written testimony: ``Irrespective of 
regulatory regimes we decide to impose in the future, it is clear that 
the development and deployment of newer, more efficient, and cleaner 
energy technologies will be needed to secure our energy future.''
    One of the primary reasons we support CEDA is that it is 
simultaneously focused on improving the country's energy security and 
reducing environmental impact of energy production, transmission, and 
use.
    Question 5. If the answer to question number 4 is yes, does the U.S 
Chamber of Commerce support action by this Committee to add clearly 
defined metrics to ensure that CEDA only finances projects that lower 
carbon pollution relative to conventional technology?
    Answer. The U.S. Chamber supports CEDA's definition of clean energy 
technology. The creation of the Department of Energy's Title 17 loan 
guarantee program demonstrates that allowing agency flexibility in such 
endeavors is preferable to proscriptive statutory language. CEDA itself 
should be able to produce the rules that establishes metrics by which 
technologies are evaluated, whether it be for financial risk or meeting 
the statutory definition of ``clean energy technology'' through the 
regulatory rule-making process.
                                 ______
                                 
    Responses of Jonathan Silver to Questions From Senator Bingaman
    Question 1. CEDA is intended to provide a flexible platform, with a 
number of financial tools to address the problems associated with 
commercialization of advanced clean energy technologies. In other 
words, the objective is to provide aid in bridging the ``Valley of 
Death'' several people have referred to in this hearing. This naturally 
implies taking on some risk that the private sector has been unable to 
shoulder and providing for novel financing arrangements in areas, such 
as building efficiency, that have been largely neglected.
    A primary criticism of the loan guarantee programs has been that 
the inter-agency review process and the multiple layers of review have 
led to support for larger, lower-risk projects, at the expense of some 
of the more innovative or entrepreneurial endeavors that will be very 
important in the coming decades. CEDA seeks to address this both by 
creating a mechanism for portfolio investing and by giving flexibility 
in how the agency can recover costs through fees.
    Understanding that the Administration has not taken a position on 
the legislation, can you provide a technical review of the language 
we're considering today with an eye towards ensuring it achieves the 
results we envision? Without changing the fundamental structure of the 
Federal Credit Reform Act, is there a way to make sure the reviews from 
the Office of Management and budget are focused on the administration 
of the fund and the process by which support is provided rather than 
project-by-project review?
    Answer. Under the Federal Credit Reform Act (FCRA), the subsidy 
cost reflects the best estimate of the long-term cost to Government of 
the loan or loan guarantee, excluding administrative costs. As with all 
other federal credit programs, OMB's responsibility for determining the 
credit subsidy cost associated with DOE's loan guarantees is found in 
Section 503 of FCRA, which states that the Director of OMB is 
responsible for credit subsidy cost estimates. Under the oversight 
authority in Section 503, OMB delegates the modeling of credit subsidy 
costs to agencies, and issues implementing guidance to ensure 
consistent and accurate estimates of cost. For new programs or programs 
where actual experience is not available, such as the Title XVII 
program, OMB works closely with agencies to create or revise credit 
subsidy models. DOE has worked with OMB to develop the credit subsidy 
estimation methodology used for the Loan Programs, and OMB approved 
DOE's credit subsidy cost model in 2008.
    Title XVII loan guarantees generally support diverse investments in 
a wide variety of underlying projects, each of which has unique risks 
and contract terms. Because the specific projects and contract terms 
vary substantially, these loan guarantees, to date, have been scored on 
a loan-by-loan basis.
    Question 2. It seems that certain technologies such as advanced 
biofuels, smaller scale projects, and manufacturing have been a 
challenge for the loan guarantee program. Are there issues with the 
structure of the loan guarantee program that naturally lead to this? Do 
you have any thoughts on the how CEDA may be able to treat these type 
of projects differently?
    Answer. As I discussed in my testimony, loan guarantees are 
appropriate for some, but not all types of projects. At its most basic, 
project finance is about matching future cash flows to repayment 
schedules. This works well for projects that have predictable future 
cash flows, such as those stemming from defined offtake arrangements 
like power purchase agreements. However, advanced biofuels and 
manufacturing projects sell products and, thus, do not have clearly 
defined and predictable revenue streams, which makes it more difficult 
to ensure any loan guarantee they received would have, as the statute 
governing Title XVII requires, a ``reasonable prospect of repayment.''
    DOE is committed to supporting advanced biofuels and manufacturing 
projects through the loan programs. We have already issued several 
conditional commitments for loan guarantees for such projects, and we 
expect to issue more in the near future.
    Question 3. The 1705 loan guarantee program will end in October of 
this year and I understand you will be informing applicants about their 
status within that program and if they are likely to be able to reach 
completion by that time. There will certainly be a group of applicants 
that may be worthy of a loan guarantee but, for various reasons, cannot 
reach the end of the process before the end date. Those projects can be 
transferred into the original 1703 program and Congress has recently 
appropriated $170 million for subsidy costs for those projects. Can you 
estimate how much of those projects could go forward using that $170 
million and how much additional subsidy cost funding might need to be 
provided to allow the remaining projects to go forward after the 
September 30th date arrives?
    Answer. The $170 million in credit subsidy currently appropriated 
to the 1703 program would support an estimated $1.1 to $1.7 billion in 
loan guarantees. As you note, DOE recently informed a number of the 
1705-eligible applicants that their applications were being placed on 
hold because of the pending sunset of that program. The applications 
placed on hold are seeking over $17 billion in loan guarantees, though 
as in the private sector, it is likely that not all of these projects 
would ultimately reach financial close.
     Responses of Jonathan Silver to Questions From Senator Sanders
    Question 1. Does the Department of Energy support Congress passing 
the Clean Energy Deployment Administration legislation as contained in 
S. 1462 from the 111th Congress, and if not why not?
    Answer. The Administration has not established a position on S. 
1462 introduced in the prior term of Congress. However, loan programs, 
properly structured, can be an important element of federal policy to 
accelerate the deployment of innovative clean energy technologies at 
commercial scope or scale, which in turn creates jobs, drives down unit 
costs, creates new supply chains, and incentivizes future research and 
development efforts. The 2012 Budget proposes $200 million in credit 
subsidy to support an estimated $1 to $2 billion in loan guarantees for 
innovative energy efficiency and renewable energy projects and up to 
$36 billion in loan guarantees to support construction of nuclear power 
facilities under the Title 17 Innovative Technology Loan Guarantee 
Program.
    Question 2. Should the Committee put a limit on the total amount of 
credit support CEDA can provide, in order to ensure it does not simply 
become a ``permanent financing platform'' for new nuclear plants, as 
has been advocated by the Nuclear Energy Institute?
    Answer. The Department of Energy does not support authorizing 
unlimited credit authority for any institution.
    Question 3. Should the Committee prohibit the financing of 
conventional coal and nuclear plants under CEDA, which are clearly not 
emerging or breakthrough technologies but rather mature technologies, 
since the express purpose of CEDA is to support breakthrough 
technologies and help technologies get to scale while avoiding the 
``valley of death''?
    Answer. If the Committee seeks to support breakthrough technologies 
and help technologies reach commercial markets, then the terms of 
eligibility enacted by Congress in the EPAct 2005 Section 1703 loan 
guarantee program may be a useful point of reference.
    Question 4. Does CEDA need stronger, more detailed metrics, for 
what constitutes a ``clean energy'' project, to ensure that CEDA only 
finances projects that reduce carbon pollution relative to conventional 
technology, and if so what metrics do you suggest?
    Answer. The Administration has not established a position on S. 
1462, including analyzing what metrics might be used to determine what 
constitutes a ``clean energy project.''
                                 ______
                                 
     Responses of Dan W. Reicher to Questions From Senator Bingaman
    Question 1. There are those that would say that as long as the 
market incentives, such as tax credits or standards such as a CES or an 
RFS, are sufficient to allow deployment, the market will take care of 
financing. Your experience seems to be that even in those cases, 
financing of innovative technologies doesn't happen. Can you expand on 
why you think this is the case?
    Answer. The problem is that mechanisms to drive deployment, like 
tax credits or standards, are largely focused on technologies that have 
already been proven at commercial scale. They do little to help 
technologies that have yet to cross the often vast ``Valley of Death'' 
that sits between an energy technology demonstrated at pilot scale--
often with government and venture capital funding--and its deployment 
at full commercial, often with traditional energy project finance. CEDA 
is designed to address this challenge in a way that tax credits and 
standards simply cannot.
    Question 2. You've spent some time looking at what other countries 
have done to provide financing for clean energy projects. Can you 
compare the scale of those programs with what we're contemplating here 
with CEDA? Do we need to match their investments?
    Answer. I worry that we are increasingly getting beaten in the 
energy technology race by the European Union and Asia, in particular 
China. Thus while in 2004 the U.S. was the focus of approximately 20% 
of total global clean energy investment and China accounted for just 
3%, in 2010, China saw 20% of that investment and the U.S. 19%--and 
this investment gap is widening rapidly.
    And the stakes are very large. The International Energy Agency 
(IEA) forecasts that over $5.7 trillion will be invested in renewable 
energy globally over the next two decades. 2010 alone saw over $127 
billion invested globally in renewable energy project financing. 
Unfortunately it is looking less and less likely that investment will 
be here in the U.S. As Will Coleman, a venture capital investor in 
clean energy companies, said in a recent Senate Energy and Natural 
Resources Committee hearing: ``We are not only seeing companies start 
here in the U.S. and then move overseas, but we are increasingly seeing 
companies start overseas and stay overseas.''
     Responses of Dan W. Reicher to Questions From Senator Sanders
    Question 1. As currently drafted in S. 1462 from the 111th 
Congress, what assurances are there that a Clean Energy Deployment 
Administration will not become a ``permanent financing platform'' for 
new nuclear plants as the Nuclear Energy Institute has advocated?
    Answer. I am comfortable that CEDA, as currently drafted, would 
take a portfolio approach to its investments. The new agency, under a 
Senate-confirmed director, would need to take a broad technology 
approach to the application of its many financial tools, from 
innovative approaches to bundling small efficiency projects into larger 
financeable packages to new ways to back advanced renewable energy 
projects to financing support for early next generation nuclear power 
plants. Without a broad portfolio approach CEDA risks taking 
unsuccessful financial stakes in a narrow range of technologies and 
therefore not being at least partially self-sustaining, as contemplated 
by Congress.
    Question 2. Should the Committee put a limit on the total amount of 
credit support it can provide, in order to ensure it does not simply 
become a ``permanent financing platform'' for new nuclear plants?
    Answer. The Committee should not put specific limits on credit 
support for specific technologies.
    Question 3. Should the Committee prohibit the financing of 
conventional coal and nuclear plants under CEDA, which are clearly not 
emerging or breakthrough technologies but rather mature technologies, 
since the express purpose of CEDA is to support breakthrough 
technologies and help technologies get to scale while avoiding the 
``valley of death''?
    Answer. I think it will be clear from its statutory mandate that 
CEDA's focus is on innovative technologies. The Committee report 
language on the bill could stress this.
    Question 4. Does CEDA need stronger, more detailed metrics, for 
what constitutes a ``clean energy'' project, to ensure that CEDA only 
finances projects that reduce carbon pollution relative to conventional 
technology, and if so what metrics do you suggest?
    Answer. I don't think the bill as written needs more detail about 
what constitutes a clean energy project. Report language on the bill 
could provide some qualitative guidance on this subject.





</pre></body></html>
